<html>
<title> - THE LONG ARM OF CHINA: GLOBAL EFFORTS TO SILENCE CRITICS FROM TIANANMEN TO TODAY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                THE LONG ARM OF CHINA: GLOBAL EFFORTS 
                 TO SILENCE CRITICS FROM TIANANMEN 
                                TO TODAY
=======================================================================

                                HEARING

                               BEFORE THE

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 24, 2016

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

         Available via the World Wide Web: http://www.cecc.gov
         
         
                                __________
                                
                                
                       U.S. GOVERNMENT PUBLISHING OFFICE
20-804                         WASHINGTON : 2016  
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5e392e311e3d2b2d2a363b322e703d313370">[email&#160;protected]</a>  
            
             
             
             
             
             
             CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA
                    LEGISLATIVE BRANCH COMMISSIONERS
                    

House                                Senate

CHRIS SMITH, New Jersey, Chairman    MARCO RUBIO, Florida, Cochairman
ROBERT PITTENGER, North Carolina     TOM COTTON, Arkansas
TRENT FRANKS, Arizona                STEVE DAINES, Montana
RANDY HULTGREN, Illinois             JAMES LANKFORD, Oklahoma
DIANE BLACK, Tennessee               BEN SASSE, Nebraska
TIM WALZ, Minnesota                  DIANNE FEINSTEIN, California
MARCY KAPTUR, Ohio                   JEFF MERKLEY, Oregon
MICHAEL HONDA, California            GARY PETERS, Michigan
TED LIEU, California

                     EXECUTIVE BRANCH COMMISSIONERS

                 CHRISTOPHER P. LU, Department of Labor
                   SARAH SEWALL, Department of State
                STEFAN M. SELIG, Department of Commerce
                 DANIEL R. RUSSEL, Department of State
                  TOM MALINOWSKI, Department of State

                     Paul B. Protic, Staff Director

                Elyse B. Anderson, Deputy Staff Director

                                  (ii)
                             
                             
                             CO N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Christopher Smith, a U.S. 
  Representative From New Jersey; Chairman, Congressional-
  Executive Commission on China..................................     1
Rubio, Hon. Marco, a U.S. Senator From Florida; Cochairman, 
  Congressional-Executive Commission on China....................     4
Hultgren, Hon. Randy, a U.S. Representative From Illinois........     6
Teng Biao, Chinese Human Rights Lawyer; Visiting Fellow, Harvard 
  Kennedy School and the U.S.-Asia Institute, NYU Law School; and 
  Co-founder, Open Constitution Initiative.......................     7
Gui, Angela, Student and Daughter of Disappeared Hong Kong 
  Bookseller Gui Minhai..........................................     8
Hassan, Ilshat, President, Uyghur American Association...........    10
Su Yutong, Journalist, Internet Activist, and Former News 
  Broadcaster for the Chinese Service of Deutsche Welle..........    12
Franks, Hon. Trent, a U.S. Representative From Arizona...........    12
Teng Biao (continued)............................................    16

                                APPENDIX
                          Prepared Statements

Teng Biao........................................................    26
Gui, Angela......................................................    28
Hassan, Ilshat...................................................    29
Su Yutong........................................................    30

Smith, Hon. Christopher, a U.S. Representative From New Jersey; 
  Chairman, Congressional-Executive Commission on China..........    32
Rubio, Hon. Marco, a U.S. Senator From Florida; Cochairman, 
  Congressional-Executive Commission on China....................    34

                       Submissions for the Record

Written Statement Submitted for the Record by Wen Yunchao, May 
  24, 2016.......................................................    36
Transcription of Video: Words From Wives of Human Rights Lawyers 
  in China.......................................................    37
Letter From the Congressional-Executive Commission on China 
  Submitted to the American Bar Association, April 19, 2016......    39
Letter From the American Bar Association in Response to Letter 
  From the Congressional-Executive Commission on China, April 25, 
  2016...........................................................    41

Witness Biographies..............................................    44

 
THE LONG ARM OF CHINA: GLOBAL EFFORTS TO SILENCE CRITICS FROM TIANANMEN 
                                TO TODAY

                              ----------                              


                         TUESDAY, MAY 24, 2016

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 12:05 
p.m., in Room HVC-210, Capitol Visitor Center, Hon. Christopher 
Smith, Chairman, presiding.
    Also Present: Senator Rubio, Representatives Pittenger, 
Hultgren, and Lieu.

      OPENING STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. 
    REPRESENTATIVE FROM NEW JERSEY; CHAIRMAN, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Chairman Smith. The Commission will come to order. Good 
afternoon to everyone.
    One year ago, U.S. Army Major Xiong Yan was barred from 
visiting his dying mother in China. Major Yan is blacklisted, 
denied access to China because he was a student leader of the 
democracy protests in 1989. Major Yan's mother passed away last 
year. Her son never had the chance to say goodbye.
    The Communist leaders in Beijing use the blacklist along 
with intimidation, repression, and the lure of the Chinese 
market to stifle the discussion of the violence and oppression 
of the Tiananmen protests and their violent suppression that 
followed.
    Academics such as Perry Link and Andrew Nathan are also 
blacklisted for writing about Tiananmen. U.S. corporations, 
eager to gain access to Chinese markets, also engaged in 
censorship about Tiananmen. Last year, the California-based 
LinkedIn began blocking Tiananmen-related articles posted 
inside China or by members hosted on its Chinese site.
    Almost 10 years ago, I chaired a series of hearings on how 
Google and other Internet search engines had completely joined 
in with the repression and with the censorship. I will never 
forget we had Google CN, which was the Chinese version. We 
posted it and showed in the Foreign Affairs Committee Room what 
the average person would see in mainland China when they did a 
search on Tiananmen Square and even the massacre in 1989. 
Nothing but pretty pictures of folks, as compared to the 
hundreds of millions of hits you would get using Google in the 
United States or anywhere else.
    The methods used by Beijing to enforce a code of silence 
have gone global. The heavy hand of the Chinese Government has 
expanded beyond its borders to intimidate and stifle critical 
discussion of the Chinese Government's human rights record and 
repressive policies.
    Before I talk more broadly about our hearing today, let me 
first say a few words about the Tiananmen massacre.
    The Commission has solemnly commemorated the Tiananmen 
massacre on and around June 4 each year. The Congress does this 
because of the lives that were lost and persons permanently 
injured in the massacre. We do so because of the profound 
impact the event had on U.S.-China relations and because so 
many former student leaders have made important contributions 
to the global understanding of China. We mark June 4th each 
year because the Chinese people are unable to mark this event 
themselves.
    This year, the Congress is not in session on June 4th, but 
Senator Rubio and I will be sending a letter to President Xi 
Jinping asking him to allow uncensored, public discussion of 
the democracy protests of 1989--to end retaliation efforts 
against those who participated in the protests and to release 
all of those still detained for holding commemorations about 
the Tiananmen protests and their violent suppression.
    We will urge President Xi to allow discussion of China's 
past history. We believe transparency is in the best interest 
of the U.S.-China relations and will improve global perceptions 
of China.
    President Xi Jinping, however, seems to have a different 
conception of what is in China's interest. As is well-
documented already in this Commission, his government is 
engaged in an extraordinary assault on civil society and 
advocates for human rights. China is not only interested in 
containing the spread of ``Western values and ideas'' within 
China, but is actively engaged in trying to roll back democracy 
and human rights norms globally.
    In fact, it would be fitting to have an empty chair at the 
witness table today representing every dissident fearful of 
sharing their story, every writer whose work has been censored 
or edited by Chinese authorities without their knowledge, and 
every journalist whose critical reporting has been blocked or 
tempered--not just in China, but in the West.
    China's recent efforts to blunt scrutiny of its rights 
record and criticism of government policies include pushing 
Thailand and Cambodia to forcibly repatriate Uyghur refugees 
and Chinese asylum seekers; disappearing and allegedly 
abducting five Hong Kong booksellers, including the father of 
one of our witnesses today; supporting clandestine efforts to 
discredit the Dalai Lama through a Communist Party-supported 
rival Buddhist sect; harassing and detaining the family members 
of foreign journalists and human rights advocates--two of our 
witnesses today will attest to such harassment; threatening the 
operations of non-governmental organizations engaged in work in 
China through the newly passed Overseas NGO Management Law and 
through other means.
    Dr. Teng will talk about the cancellation of his book 
project by the American Bar Association [ABA]. We asked--
Senator Rubio and I--the ABA to testify today, but the ABA 
President Paulette Brown and the ABA's CEO Jack Rives were not 
available to testify on this day. We will open the possibility 
to any day that they would like to come and speak to our 
Commission in an open hearing.
    The ABA sent a letter to the Commission last month, 
however, responding to an inquiry by the Commission about the 
details surrounding their rescinding of the Teng book project. 
They want that letter to serve as their testimony. I would hope 
that they would go beyond it, and come here and face us and 
answer legitimate questions posed by Members of the Commission.
    A copy of the Commission's letter to the ABA and the ABA 
response will be added to the record without objection.
    The long reach of China extends beyond its borders to 
Thailand, South Korea, Malaysia, India, Kenya, at the United 
Nations, and in the United States.
    These efforts present real strategic implications for the 
United States and the international community. The abductions 
of the booksellers challenge the ``one country, two systems'' 
model in Hong Kong. China's efforts to bend international human 
rights norms present a clear challenge to the United Nations 
and the Human Rights Council's efforts to hold China 
accountable. China's efforts to enforce a code of silence, 
globally, through its economic and diplomatic clout directly 
challenge the Obama Administration's ``Asia Pivot'' and U.S. 
human rights diplomacy.
    The President and his Administration have only a few more 
chances to seriously raise human rights concerns with China: 
the Strategic and Economic Dialogue in two weeks and the G-20 
meeting in September.
    Congress and this Commission will press the Administration 
to do more to advance human rights in China. President Obama 
must ``shine a light'' on human rights problems in China 
because nothing good happens in the dark. And glib talk and 
pious platitudes simply do not cut it.
    But we must also look ahead, use our Commission hearings, 
our Annual Report, and other publications to make a compelling 
case for the next Administration about the centrality of human 
rights to U.S. interests in Asia.
    It is increasingly clear that there is a direct link 
between China's domestic human rights problems and the security 
and prosperity of the United States. The health of the U.S. 
economy and environment, the safety of our food and drug 
supplies, the security of our investments and personal 
information in cyberspace, and the stability of the Pacific 
region will depend on China's complying with international law, 
allowing the free flow of news and information, complying with 
its WTO obligations, and protecting the basic rights of Chinese 
citizens, including the fundamental freedoms of religion, 
expression, assembly, and association.
    Losing sight of these facts leads to bad policy, bad 
diplomacy, and the needless juxtapositioning of values and 
interests. It also sends the wrong message to those in China 
standing courageously for greater freedoms, human rights, and 
the rule of law. The human rights lawyers, the free press 
advocates, and those fighting for labor rights, religious 
freedom, and democracy are the best hope for China's future. 
And, they are the best hope for a more stable and prosperous 
U.S.-China relationship.
    I would like to now yield to our distinguished Cochair, 
Senator Marco Rubio.
    [The letters appear in the appendix.]
    [The prepared statement of Representative Smith appears in 
the appendix.]

  STATEMENT OF HON. MARCO RUBIO, A U.S. SENATOR FROM FLORIDA; 
    COCHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Senator Rubio. Thank you very much, and thank all of you 
for being here today.
    Next week marks the 27th anniversary of the student-led 
popular protests in Tiananmen Square. It was spurred by the 
death of a prominent reformer. Thousands gathered in April 1989 
seeking greater political freedom
    Their numbers swelled as the days passed, not only in 
Beijing but in cities and universities across the nation. 
Eventually, more than a million people, including journalists, 
workers, government employees, and police, joined their ranks--
making it the largest political protest in the history of 
communist China.
    And then late in the evening of June 3, the Army opened 
fire on peaceful protesters. The bloodshed continued until the 
next day. To this day, the precise number of resulting 
casualties is unknown and more than a quarter of a century 
later, there has been no progress toward a public accounting of 
the events of that fateful week.
    Instead, 27 years later, the Chinese Government is 
increasingly brazen in its repression--no longer limiting its 
reach to China's territorial boundaries but instead seeking to 
stifle discussion of its deplorable human rights record, both 
at home and abroad. In that context, consider the following: 
Dissidents regularly report that their family members who 
remain in China are harassed, and detained, and even imprisoned 
in retaliation for their truth-telling about the regime's 
abuses. News reports abound of Uyghur Muslim and Chinese 
asylum-seekers being forcibly repatriated from neighboring 
Southeast Asian countries under pressure from the Chinese 
Government.
    Journalists and academics alike are threatened with visa 
revocations, thereby allowing self-censorship to take root in 
what should be the very bastions of free expression and 
inquiry. Even educational institutions based here in the United 
States are not immune as more have welcomed the establishment 
of Confucius Institutes.
    While seemingly benign at face value, the financial support 
that accompanies these centers for Chinese language and 
cultural education come with definite strings attached. 
Sensitive topics, including Taiwan and Tibet, are excluded from 
the curriculum, and invitations for the Dalai Lama to speak at 
prominent universities are mysteriously withdrawn.
    In 2014, the American Association of University Professors 
issued a statement calling on colleagues across the United 
States and Canada to reconsider their partnerships with these 
centers, stating that, ``The Confucius Institutes function as 
an arm of the Chinese state and are allowed to ignore academic 
freedom.''
    In April 2016, the Indian government blocked several rights 
advocates and activists from attending an Interfaith/
Interethnic Conference in Dharamsala, India reportedly due to 
Chinese Government pressures to rescind their visas.
    Last month, a news story broke alleging that the American 
Bar Association had canceled a proposed book project with 
prominent Chinese human rights lawyer Teng Biao, who we will 
hear from today. Multiple news sources reported that the 
project was canceled because of fears that the initiative would 
offend the Chinese Government. The ABA has denied these 
reports, claiming that the staff person in question who had 
interfaced with Teng Biao had been misinformed. Yet questions 
remain not only about the specifics of the book project but 
more broadly about the ability of groups like the ABA to 
continue working in China without compromising its principles.
    And, of course, any discussion of the long arm of Beijing 
must include recent troubling developments in Hong Kong, 
specifically the disappearance and alleged abductions of five 
Hong Kong booksellers, which have rightly raised alarm bells 
among Hong Kong activists, human rights organizations, and 
foreign governments. The Commission will have the distinct 
privilege today to hear from Angela Gui, the daughter of 
missing bookseller Gui Minhai, a naturalized Swedish citizen 
who disappeared in October 2015 from Pattaya, Thailand.
    In the recent State Department Hong Kong Policy Act report 
to Congress, the Department rightly noted that, ``These cases 
have raised serious concerns in Hong Kong and represent what 
appears to be the most significant breach of the `one country, 
two systems' policy since 1997.''
    In a sad testament to the timeliness and importance of 
today's hearing topic, some of the witnesses the Commission 
approached with an invitation to testify declined based on very 
legitimate fears about what would happen to members of their 
family who remain in China. This is an inexcusable reality.
    For too long, China has gotten a free pass. The Obama 
Administration's final U.S.-China Strategic and Economic 
Dialogue is just days away in Beijing. Will these issues be 
prioritized? Will every participating U.S. government agency be 
charged with bringing human rights to the forefront with their 
Chinese counterparts? Will there be consequences for China's 
bold and aggressive disregard for human rights and 
extraterritorial reach?
    In March, the United States spearheaded a collective 
statement at the U.N. Human Rights Council voicing serious 
concern about a number of issues to include the unexplained 
recent disappearances and apparent coerced returns of Chinese 
citizens and foreigners to China. The upcoming S&ED will be a 
litmus test for this Administration. The statement was 
commendable, but will words translate into action?
    Thank you.
    Chairman Smith. Thank you, Chairman Rubio.
    Commissioner Randy Hultgren?
    [The prepared statement of Senator Rubio appears in the 
appendix.]

 STATEMENT OF HON. RANDY HULTGREN, A U.S. REPRESENTATIVE FROM 
                            ILLINOIS

    Representative Hultgren. Well, thank you. I will be very 
brief. I want to get to our witnesses as quickly as possible.
    I do want to thank Chairman Rubio. I appreciate your work 
on this, and Chairman Smith as well. This is so important, and 
I am grateful for this hearing today. I really want to echo 
what our Cochairman has said, that this is our responsibility 
to continue to talk about the abuses that have happened, and 
continue to happen in China.
    When things are swept under the rug, hidden, that we are 
lied to, frustration that we face when our own people here, 
Administration or others, might say, ``Well, we do not want to 
rock the boat.'' Well, you know what? Lives are at stake and we 
need to do everything that we can to speak up for those who 
cannot speak up for themselves.
    So that is why this hearing is so important, why we must 
never forget what happened 27 years ago on June 4, and continue 
to do everything we possibly can for every person and for every 
life to have the value that it deserves.
    So thank you, witnesses, for being here. We want to work 
with you. We know your families, your own future is often in 
danger, and we want to work with you, fight for you, and fight 
for freedom for every single person.
    So with that, Chairman Smith, Chairman Rubio, I yield back. 
Thank you.
    Chairman Smith. Thank you, Randy. I would like to now begin 
with our witnesses, first with Dr. Teng Biao, a well-known 
human rights lawyer; Visiting Fellow at the Harvard Kennedy 
School and the U.S.-Asia Institute, NYU Law School; and the Co-
founder of the Open Constitution Initiative.
    Dr. Teng holds a Ph.D. from Peking University Law School 
and has been a visiting scholar at Yale Law School. He is 
interested in the research on human rights, judicial systems, 
constitutionalism, and social movements.
    As a human rights lawyer, Dr. Teng is a promoter of the 
Rights Defense Movement and co-initiator of the New Citizens' 
Movement in China. In 2003, he was one of the ``Three Doctors 
of Law'' who complained to the National People's Congress about 
unconstitutional detentions of internal migrants.
    Since then, Dr. Teng has provided counsel in numerous other 
human rights cases, including those of Chen Guangcheng, and 
rights defender Hu Jia, and many other religious freedom and 
death penalty cases.
    We will then hear from Angela Gui, who is a 22-year-old 
final-year undergraduate sociology student at the University of 
Warwick in the United Kingdom. As the daughter of disappeared 
Hong Kong bookseller, Gui Minhai, she has followed and worked 
actively on his case with governments, police, and various 
human rights groups since his disappearance in October of 2015.
    She also did a brief internship with his and Lee Bo's 
company, Mighty Current Distributions, in the summer of 2014. 
Aside from her studies and work on her father's case, Ms. Gui 
is also editor and creative director of Warwick Sociology 
Journal, an academic journal showcasing undergraduate and 
graduate students' work from universities worldwide.
    After graduation, Ms. Gui plans on continuing on to a 
master's degree in the history of medicine.
    We will then hear from Ilshat Hassan, who is the President 
of the Uyghur American Association. Born in Ghulja, in 
Xinjiang, he taught at a college in Shihezi in Xinjiang for 15 
years.
    In November 2003, his teaching career abruptly ended due to 
his political activities. He fled to Malaysia, leaving behind 
parents, a wife, and a teenage son. Mr. Hassan came to the 
United States as a refugee in July 2006. He soon after joined 
the Uyghur American Association where he became a very active 
Uyghur human rights campaigner.
    He writes in blogs, frequently in Chinese, and is well-
known in the overseas Chinese democracy community.
    Finally, we will hear, then, from Su Yutong who is a 
Chinese journalist and human rights defender. Because of her 
involvement in commemoration of the events linked to the 
Tiananmen massacre, she was invited for tea and for chats by 
the Chinese authorities and kept under surveillance, and 
periodically placed under house arrest.
    In 2010, after she distributed Li Peng's diary, her home in 
China was raided, and documents were confiscated by the police. 
After leaving China in 2010, she started working in Bonn with 
Deutsche Welle, the German international broadcaster.
    On July 4, 2014, however, a Beijing-based media consultant 
claimed in Deutsche Welle that some Western media were unfairly 
critical of the Chinese Government's crushing of the Tiananmen 
Square demonstrations. Ms. Su then became one of the most 
outstanding voices against this whitewashing of the 1989 
events. In August of 2014, Deutsche Welle ended their 
employment relationship with her, sadly.
    I would like to now go to Dr. Teng who is coming to us via 
Skype. [Pause.]
    Dr. Teng, if you could begin your testimony. And if the 
camera man could move it a little to your right because you are 
way off on our left, your right.

 STATEMENT OF TENG BIAO, CHINESE HUMAN RIGHTS LAWYER; VISITING 
FELLOW, HARVARD KENNEDY SCHOOL AND THE U.S.-ASIA INSTITUTE, NYU 
    LAW SCHOOL; AND CO-FOUNDER, OPEN CONSTITUTION INITIATIVE

    Mr. Teng. Can you hear me now?
    Chairman Smith. Better. A little bit more. We are seeing 
your chin and not your full face.
    Mr. Teng. Can you hear me? Should I start?
    Chairman Smith. Yes, please start. But if you could move to 
your left if you would.
    Mr. Teng. Okay. Thank you very much for your promoting 
human rights in China.
    In 2014, the American Bar Association [ABA] invited me to 
write a book in which I would describe the decade I spent 
engaged in human rights work in China, my experience of 
disbarment, being kidnapped, being tortured, and my views on 
China's politics, judicial system, society, and future. But the 
formal offer of the ABA was soon rescinded. The Executive 
Director of ABA publishing wrote to me: ``There is a concern 
that we run the risk of upsetting the Chinese Government by 
publishing your book. And because we have ABA commissions 
working in China, there is a fear that we would put their work 
at risk.''
    So this is a typical case of censorship, but I do not want 
to single out ABA. It is simply an example of the corrosive 
effect of the Communist party on the West. I had the experience 
of my scheduled speech being canceled by a university in the 
United States. The reason given to me was exactly the same as 
the ABA's.
    The Confucius Institutes erode Western academic freedom. 
The ``red capital'' investment in Hong Kong and Taiwan media 
erode press freedom. Another example is cyberattacks on 
websites of foreign governments or institutions. [Internet 
connection lost.] [Pause.]
    Chairman Smith. While we wait to get Dr. Teng back, I would 
like to go to Angela Gui. When we get Dr. Teng back, we will 
put him on after your testimony.

 STATEMENT OF ANGELA GUI, STUDENT AND DAUGHTER OF DISAPPEARED 
                HONG KONG BOOKSELLER GUI MINHAI

    Ms. Gui. Mr. Chairman Smith, Mr. Cochairman Rubio, Members 
of the CECC, thank you for inviting me to testify at this very 
important hearing, and thank you for the concern this 
Commission has shown for people like my father who are being 
persecuted by the Chinese Government in China, and now, 
increasingly, abroad.
    As a university student, I never would have thought I would 
find myself testifying in front of the U.S. Congress, and 
certainly not under circumstances like these.
    However, on October 13, 2015, I had my last Skype 
conversation with my father. Living in different places, we 
used to call each other on Skype regularly. I would tell him 
about how my studies were going, and he would tell me about 
work and how he was trying to get back into shape.
    Our last Skype call was not very different. He had been 
renovating his kitchen in Hong Kong and sent me pictures of 
what it looked like, saying he would show me in person when it 
was finished.
    We made plans to speak again in a few days, but then he 
stopped replying to my messages and emails, would not pick up 
when I called, and, about 3 weeks later, I received an email 
from his colleague, Lee Bo, saying my father had been missing 
for over 20 days and that he feared my father had been taken by 
Chinese agents for political reasons relating to his publishing 
business and bookstore.
    I was later told that my father was last seen leaving his 
holiday apartment in Thailand with a man who had been loitering 
there, waiting for my father to return. I was also told that 
three of his colleagues at the bookstore had gone missing 
around the same time. We did not know that Lee Bo, himself, 
would be next.
    Since then, the Chinese have detained my father without 
trial or charges. In November and in January, he sent me two 
messages on Skype, telling me to keep quiet. As his daughter, I 
could tell that he sent these under duress.
    I did not hear or see anything of my father until a clearly 
staged and badly put together confession video of him was aired 
on Chinese state TV in January, three months after he was last 
seen. It failed to explain why they had held him without charge 
for three months and looked to me like they felt they needed to 
fabricate a justification in face of increasing media pressure.
    Mr. Chairman, it has now been eight months since my father 
and his colleagues were taken into custody. I still have not 
been told where he is, how he is being treated, or what his 
legal status is, which is especially shocking in light of the 
fact that my father holds Swedish, and only Swedish, 
citizenship. In the so-called confession, my father says he 
travelled to China voluntarily, but if this is true, then we 
might ask why there is no record of him having left Thailand.
    Only a state agency, acting coercively and against both 
International and China's own law, could achieve such a 
disappearance. By acting against my father and his colleagues, 
the Chinese are undermining their commitment to the ``One 
Country, Two Systems'' principle.
    I want my testimony today to be a reminder to governments 
that despite the media having gone eerily quiet, my father, a 
Swedish citizen who was abducted by Chinese state agents from a 
third sovereign country, is still in unofficial and illegal 
detention somewhere in China, without access to consular visits 
or legal representation.
    Despite having been told to stay quiet, I believe speaking 
up is the only option I have. Past cases clearly show that 
public criticism has had positive effects, and I am convinced 
my father would have done this for me, were I the one abducted 
and illegitimately detained without any indication of 
timeframe.
    Therefore I am also here to ask for the Committee's help 
and support in working with the Swedish and other governments 
to demand my father's immediate release. Alternatively, if he 
is suspected of an actual crime, we ought to be given official 
details of his detention and proof that his case is handled 
according to established legal procedure.
    I also want to ask the United States to take every 
opportunity to ask China for information on my father's status, 
as well as urge that he be freed immediately.
    Finally, the United States, Sweden, and other countries 
concerned about these developments need to work to make sure 
that Chinese authorities are not allowed to carry out illegal 
operations on foreign soil.
    Thank you.
    Chairman Smith. Thank you so very much for your testimony, 
Angela.
    I would like to now--is Dr. Teng ready to come back? We 
will give it a shot, and if not, we will go to Mr. Hassan.
    [The prepared statement of Ms. Gui appears in the 
appendix.]

    STATEMENT OF ILSHAT HASSAN, PRESIDENT, UYGHUR AMERICAN 
                          ASSOCIATION

    Mr. Hassan. Thank you, Mr. Smith; thank you, Mr. Rubio; 
thanks everyone. I would like to first thank, also, the CECC 
for holding this important hearing today and for inviting me to 
participate. I am a victim of the Chinese Government's constant 
political persecution and a human rights activist living in the 
United States.
    Personally, I hope the U.S. Government and U.S. Congress 
can understand the Chinese Government's long arm, which 
stretches beyond China's borders to overseas, to threaten and 
harass overseas human rights activists. I hope the U.S. 
Government and Congress will act to hold the Chinese Government 
accountable for its vicious actions.
    My name is Ilshat Hassan Kokbore, also known as Ilshat 
Hassan. I was born in Ghulja, East Turkistan. The Chinese call 
it Xinjiang.
    I have been politically active against communist Chinese 
rule in East Turkistan since studying at university in the 
1980s. Constantly, I was under harassment, threats, and 
persecution from the regional government and secret agents, and 
police. I was, in university, beaten by police. And the police 
station also used an electric club to shock me. During work 
hours, I was frequently visited by the police, secret service, 
and I was also detained and beaten in the police station 
detention center, and my tooth was broken when they used the 
electric club to beat me.
    Eventually, I was forced to leave East Turkistan in 
November 2003, leaving behind parents, sisters, a brother, 
wife, and an 11-year-old son. After I left China, when I was in 
Malaysia, my only brother--the youngest--was killed by a 
Chinese mob one year later, on November 27, 2004. I got the 
news a few months later in Malaysia, while waiting for the 
refugee resettlement through the UNHCR [UN High Commissioner 
for Refugees]. In July 2006, I came to the United States.
    After coming to the United States, I joined the Uyghur 
community, joined the Uyghur American Association, and became 
active. I actively participated in all political campaigns 
organized by the Uyghur community, organizing demonstrations 
against the Chinese Government's occupation of East Turkistan, 
attending and holding conferences to expose the Chinese 
Government's cruel policy against the Uyghur people, and 
writing articles in Chinese to rebuke their claim over East 
Turkistan.
    My political activities greatly agitated the Chinese 
Government. In the beginning, the Chinese Government held my 
family members hostage, denying my ex-wife and son passports; 
inhumanely causing the forced separation of my family. I was 
only able to meet with my son after 10 years of long-suffering 
separation. In 2014, I went to Malaysia and picked up my son--
after 10 years.
    After losing the hope of getting a passport for my ex-wife, 
and also to protect her from constant harassment from the 
Chinese Government, I had to make the painful decision to get a 
divorce. But that did not stop the Chinese Government from 
continuing to harass and threaten my ex-wife.
    Recently, my son called me from Istanbul, Turkey and told 
me his mom--again--was visited by the Chinese police. My son 
sometimes asked me, ``Can you be a little bit low profile, Dad, 
because mom is still there, under the Communist regime.''
    In order to pressure me to stop my political activities, on 
August 17, 2014, at midnight, Chinese regional authorities 
burst into my elder sister's house around 1:30 a.m. After 
searching her house and taking her son's computer, she was 
detained in an undisclosed place for around 8 to 10 months. I 
do not know when she was released. I know after eight months, 
she was not out.
    Recently, my dad passed away. On the phone--I got my sister 
to pick up the phone, but she was not there to speak to me, 
just passed the phone to my mom. So I know she was released.
    She was held without any charge, and she was a retired 
nurse, single mother with two kids. Her daughter graduated from 
university six years ago, and until now cannot get a job. Her 
son, in 2014, was accepted by a college.
    When I called my home after my dad passed away, that is the 
only time since August 2014 I have been able to call my family; 
I had some--a little-- conversation with my mom. She was 
telling me my sister's son could not go to university and is 
still staying at home with no job.
    On the same day, August 17, 2014, RFA journalist Shohret 
Hoshur's two brothers were also detained, and were later 
sentenced. This was obvious retaliation against Mr. Hoshur, who 
revealed a great deal about Chinese police brutality against 
Uyghurs.
    As we all know, prominent Uyghur leader, human rights 
champion, and World Uyghur Congress President Mrs. Rebiya 
Kadeer has constantly been accused by the Chinese Government of 
being an evil separatist, and her two sons were sentenced to 
jail as retaliation from the Chinese Government. The Chinese 
Government pressured one of Mrs. Kadeer's imprisoned sons to 
condemn his mother and to accuse Mrs. Kadeer of being an evil 
criminal. As normal, civilized human beings, we cannot imagine 
under what circumstances and under what kind of pressure a son 
was forced to condemn his dearest mother, accusing his own 
mother publicly of being a criminal.
    Dolkun Isa, another prominent Uyghur human rights activist, 
and Chair of the World Uyghur Congress Executive Committee, was 
recently preparing to attend a meeting in Dharamsala, India. 
The Indian Government, after issuing a visa to Mr. Isa, and 
under the Chinese Government's pressure, cancelled the visa, 
denying Mr. Isa entry into India.
    In late 2009, Mr. Isa, as a German citizen, was in 
immediate danger of being repatriated back to China when he 
tried to enter South Korea to attend a human rights conference. 
He was put in solitary confinement for more than three days in 
the airport before the United States and European Union 
intervened.
    The Chinese Government has constantly tried to block all of 
Dolkun Isa's political activities by claiming he is a wanted 
terrorist according to an Interpol red notice, baselessly 
accusing him of supporting and funding terrorists.
    Recently, another friend of mine, a Uyghur who is a 
Norwegian citizen, called me and told me that his family 
members living in East Turkistan were being harassed by the 
Chinese Government. Some of his family members were brought to 
the police station and interrogated for several hours, and they 
were told to tell him to stop any activities supporting 
Uyghurs.
    Of course, we all know about the Uyghur refugees who 
managed to get out of China. But unfortunately, they were sent 
back to China by some irresponsible countries when they were in 
the process of applying for UNHCR refugee status. Some of them 
were directly interrogated by Chinese police in other 
countries, in Malaysia, in Thailand, and in Kazakhstan, 
Uzbekistan, etc., and their family members were threatened. 
After they were repatriated, most of them disappeared, and some 
of them were given harsh sentences.
    The story of Uyghurs facing the Chinese Government's 
constant persecution, harassment, and threats goes on and on. 
Even Uyghurs who live overseas cannot be spared from the 
inhuman political persecution of the Chinese Government. The 
Chinese Government's long arm keeps stretching longer and 
longer. It is obvious that if China is not pressured to stop 
this kind of harassment, no one will be safe, regardless of 
where we live.
    Thank you all.
    Chairman Smith. Thank you very much, Mr. Hassan.
    Ms. Su?
    [The prepared statement of Mr. Hassan appears in the 
appendix.]

  STATEMENT OF SU YUTONG, JOURNALIST, INTERNET ACTIVIST, AND 
  FORMER NEWS BROADCASTER FOR THE CHINESE SERVICE OF DEUTSCHE 
                             WELLE

    Ms. Su. My name is Su Yutong. I am a journalist and 
activist based in Germany. In June 2010, after I made public 
the personal diary of former Chinese Premier Li Peng, my house 
was ransacked by the police and I was forced to leave China.
    In August that year, I became a journalist with the Chinese 
section of Deutsche Welle, where I wrote and published nearly 
1,500 articles, most of which were about human rights and 
political affairs in China. The human rights lawyers and 
activists I reported on included Chen Guangcheng, Ilham Tohti, 
Gao Zhisheng, and Gao Yu. All of this work annoyed the Chinese 
Communist Party. Its state-owned newspaper Global Times 
attacked me in an article in August 2014, for ``constantly 
criticizing and vilifying China.''
    Before I came to the United States to participate in this 
hearing, I was in contact with Chinese journalist Gao Yu and 
the family members of detained human rights lawyers. Gao, aged 
72, had already been jailed twice. She was arrested and 
sentenced to prison in April 2014, for a third time, on charges 
evidently fabricated by the Chinese Communist Party.
    The real reason for her imprisonment was retaliation for an 
article she published in her Deutsche Welle column, Beijing 
Observation, which criticized Xi Jinping. I was her executive 
director at the time. Last November, after Gao Yu was released 
on medical parole, the University of Bonn hospital was 
preparing to provide comprehensive treatment for her. And the 
German Ambassador to China issued her a visa to Germany. But 
the CCP authorities prevented Gao from leaving China for her 
medical treatment and ordered that she remain silent.
    Since July 9, 2015, the Chinese Government has been 
conducting a sweeping crackdown on human rights lawyers and 
activists. The wives of several detained lawyers asked me to 
bring two videos to this hearing. To this day, these women have 
been unable to visit their husbands in custody. No one knows 
what abuses these jailed lawyers and activists have been 
suffering.
    These women are appealing, again, to the media and the 
international community for assistance. I would like to request 
to show these two video clips at this hearing.
    At this hearing today, there is not enough time to tell the 
stories of all the human rights activists in China. [Showing of 
a video clip.]
    All three lawyers featured in this video clip, I know them 
well. I have met them when I was working in China. Later on, I 
interviewed them. I was in touch with them when I was working 
for Deutsche Welle in Germany.
    Since Xi Jinping took power, China's human rights 
conditions have worsened constantly. The most courageous and 
outstanding people in China today are in prison or on the way 
to prison.
    I am hoping such a human rights disaster in China will 
receive more international media coverage and more attention 
from the international community. But there is one dangerous 
trend--that is how the Chinese Communist Party has reached its 
arms of news control overseas, as part of its ``Great Overseas 
Propaganda Strategy.'' Such strategies include cross-border 
censorship and infiltration, attempting to muzzle international 
media in their coverage of China's worsening human rights 
conditions. As a journalist, I urge the Congress to pay more 
attention to this reality.
    In 2011, Li Congjun, the head of Xinhua News Agency, 
described in an article in the Wall Street Journal the ``new 
global media order.'' Hundreds of Confucius Institutes 
proliferate around the world as an important part of China's 
overseas propaganda campaign. The Chinese Government has been 
pouring large sums of money in buying up overseas newspapers 
and radio networks.
    Benjamin Ismail, Asia Director of Reporters Without Borders 
(RSF) says RSF found a number of digital radio stations in 
Paris that had been secretly run by proxy companies operated by 
the Chinese Government. In November 2015, Reuters also reported 
that WCRW, a radio station based in Washington, DC, has China 
International Radio, a Communist Party mouthpiece, as its 
hidden major shareholder.
    According to an investigation by Reuters, there are already 
33 radio stations around the world that are affiliated with 
China International Radio. Numerous media outlets with the 
Chinese Government as the controlling shareholder are scattered 
around the world. And they hire local workers. At the press 
conferences during the annual sessions of National People's 
Congress and the Chinese People's Political Consultative 
Conference in Beijing, CCP officials invited reporters from 
fake overseas media to ask pre-arranged, non-sensitive 
questions.
    Buying off and cracking down. Those are the two tactics 
being adopted in Hong Kong--once a paradise for books banned in 
China. Hong Kong publisher Yao Wentian was sentenced to 10 
years' imprisonment in China for publishing the book ``Xi 
Jinping, The Godfather of China.'' French journalist Ursula 
Gauthier was expelled by Beijing in late 2015 for her reporting 
and commentaries on Xinjiang. In March of this year, relatives 
of New York-based activist Wen Yunchao--also known as Bei 
Feng--and German-based political commentator Chang Ping were 
detained and interrogated in relation to an open letter calling 
on Xi Jinping to resign.
    Under the CCP's media control, a number of overseas and 
online Chinese language media outlets have been serving as 
platforms to learn about a real China. When I was young, I 
secretly listened to Voice of America, which was and is still 
banned in China. These media outlets have now become targets of 
the Chinese Communist Party's incessant efforts at control. 
Chinese embassies and consulates around the world have started 
to play the role of Ministry of Propaganda.
    In 2013, my former employer Deutsche Welle hired Peter 
Limbourg as its new director. Soon after he assumed the post, 
Mr. Limbourg paid a visit to the Chinese division of Deutsche 
Welle and told the staff that he had met with Shi Mingde, 
China's Ambassador to Germany. Mr. Limbourg demanded that the 
Chinese division not always criticize the Chinese authorities 
and should ``appropriately encourage'' them instead.
    In 2014, Mr. Limbourg hired Frank Sieren, a German 
businessman who is a long-term resident of Beijing, and who has 
businesses with Chinese Communist Party mouthpieces, such as 
the Global Times. Mr. Sieren has had numerous business 
corporations with other Chinese Communist Party outlets such as 
China Central TV.
    In September 2014, German newspaper Suddeutsche Zeitung 
reported the minutes of an April meeting between Deutsche Welle 
and China's Ambassador to Germany, which clearly revealed that 
the Chinese Embassy demanded that Deutsche Welle change.
    On June 4, 2014, Frank Sieren published an article in 
Deutsche Welle, in German and Chinese languages, describing 
Tiananmen Massacre as ``a slip-up by the Chinese Communist 
Party.'' The piece sparked a public outcry from a number of 
pro-democracy activists and massacre survivors, including Mr. 
Fang Zheng, who had both legs crushed by a tank during the 
massacre.
    I was a signatory to an open letter protesting this 
article. I spoke up against the article on Twitter. Soon 
afterward, the deputy director and the director of Deutsche 
Welle Chinese division, both of whom were highly critical of 
Mr. Sieren's article, were shifted to other positions. 
Meanwhile, I was fired by Deutsche Welle.
    In late August 2014, Mr. Limbourg traveled to Beijing to 
attend a Chinese-German media symposium hosted by the Chinese 
Communist Party mouthpiece Global Times. At the same time, I 
published an open letter to him in the New York Times saying 
that ``the voice of China'' is currently attempting to use 
economic seduction and coercion to expand its ``great overseas 
propaganda'' campaigns around the world.
    My wishful thinking was that Mr. Limbourg, under the warm 
reception of Global Times, would not be drowned in Chinese wine 
and succumb to becoming a tool in the Chinese Communist Party's 
``overseas propaganda campaigns.'' But much to my regret, Mr. 
Limbourg met with Wang Gengnian, the head of China Radio 
International, in Beijing on August 28, 2014. Mr. Limbourg said 
that Deutsche Welle's coverage would fit into the guidance and 
direction set by China. Soon afterward, he announced a 
cooperative framework between Deutsche Welle and China Central 
Television.
    In early 2015, Germany's Bundestag took note of this 
cooperation program and conducted a hearing. Deutsche Welle 
announced that it would temporarily suspend its cooperation 
with CCTV.
    Meanwhile, Frank Sieren continues to write a column for 
Deutsche Welle [DW]. In 2008, another scandal took place at 
Deutsche Welle, when a DW reporter named Zhang Danhong lied on 
a German TV program that the human rights conditions in China 
were excellent. She was moved to another division at Deutsche 
Welle after protests from a large number of members of the 
audience and pro-democracy activists. But in early 2015, Ms. 
Zhang was quietly returned to the Chinese department of DW and 
was given her own column.
    Meanwhile, the former columnist for DW, journalist Gao Yu, 
who was detained in Beijing--her column was not revived even 
after her release. All of these changes are sending subtle 
signals.
    The Chinese Communist Party has been continuously expanding 
its scope of censorship. On May 10, German legislator Michael 
Brand told the media that he was denied entry to China because 
of his criticism of China's Tibet policy. Mr. Brand, Chairman 
of the Committee on Human Rights and Humanitarian Aid of the 
German Bundestag, said the Chinese Embassy in Germany sent 
people to meet with him in person, demanding that he delete his 
articles on Tibet from his official website. They also demanded 
that Mr. Brand not attend a meeting with a Tibetan human rights 
organization.
    Mr. Brand said, ``Such behaviors by the Chinese Communist 
Party are blatant and absurd, and it is unacceptable that the 
Chinese Communist Party exports its censorship to Germany.''
    Mr. Brand's stance was very clear and of great importance. 
We hope politicians in countries around the world dare to say 
``no'' to the Chinese Communist Party. In recent years, as 
China has achieved economic progress, numerous countries choose 
silence and compromise on China's human rights abuses in 
exchange for contracts with the Chinese Government. The most 
notable is the U.S. President, Barack Obama, who has been very 
weak and compromising when facing China's human rights issues.
    The Chinese Government, nowadays, dares to reach its long 
arms to control the world. One factor is the brutal politics 
since Xi Jinping took power. The other reason is the 
appeasement from a number of countries.
    As a media worker, I urge democratic countries to take 
notice of the Chinese Communist Party's propaganda campaigns 
overseas, and its infiltration and disturbance of the freedom 
of press. The United States and other countries should organize 
investigations into China's infiltration of press freedom and 
media outlets established by the Chinese Communist Party.
    As a human rights activist, I am here to criticize and 
expose the increased crackdowns and persecution of human rights 
activists by the Chinese Communist government, especially under 
Xi Jinping's regime. I hereby request democratic governments 
not to neglect human rights conditions in China. Former U.S. 
President John F. Kennedy said in his speech at West Berlin's 
city hall in 1963, ``Freedom is indivisible, and when one man 
is enslaved, all are not free.''
    Finally, please allow me to express my gratitude to CECC's 
continuous focus on China's human rights conditions and 
assistance to activists all along. My special thanks to 
Congressman Chris Smith and Senator Marco Rubio.
    Chairman Smith. Su Yutong, thank you very much for your 
testimony.
    I think we are ready for Dr. Teng again. At least I have 
been told that. Yes.
    Dr. Teng, if you could continue your testimony and if you 
could move to your left because we can only see half of you.
    [The prepared statement of Ms. Su appears in the appendix.]

               STATEMENT OF TENG BIAO (Continued)

    Mr. Teng. Okay. Thank you. I am sorry for the 
disconnection. That is an example of CCP's long arm. I will 
continue my testimony.
    Some Western journalists have been forced out of China or 
denied visas. Books and movies were partly changed or deleted 
when entering the Chinese market. Many Western scholars of 
China practice self-censorship--if their conclusions on a 
``sensitive'' topic anger the regime, they will not get a visa, 
and their position and funding will be jeopardized.
    Chinese and Tibetan activists living in California, Paris, 
or London were physically attacked when participating protests. 
More and more restrictions on the peaceful protests applied or 
organized by Chinese, Tibetan, and Uyghur activists when 
Chinese leaders visit Western countries. This of course has 
hurt the freedom and rule of law of the West. [Indiscernible.]
    Chairman Smith. Dr. Teng, if you could suspend for a 
moment. It is garbled. The connection is not good. Maybe we 
could try to fix that and come back to you one last time if we 
could. So we will try to fix that connection, but it is 
garbled.
    Without objection, your full statement will be made a part 
of the record.
    And I will mention some of it in my comments because it is 
so brilliantly written and it tells a story that needs to be 
told. So I want to thank you. If we could get this connection 
cleared up, we will do so.
    Let me begin with some questions to our distinguished 
witnesses. Just to point out, Dr. Teng makes very serious 
points, which unfortunately, we could not hear from his own 
lips.
    He talks about how his book--he was invited by the ABA to 
write a manuscript that was to be called Darkest Before the 
Dawn. In it, he would describe a decade that he spent engaged 
in human rights work in China and what those experiences 
illustrate about the country's politics, judicial system, and 
society.
    Yet, then he was told by the American Bar Association--
again, the very people who invited him to write this--and I 
will quote from the email. ``I have some bad news,'' wrote an 
ABA employee, ``My publisher, after receiving some concerns 
from other staff members here about your proposed book, has 
asked me to rescind the offer that I made for Darkest Before 
Dawn on December 9. Apparently, there is concern that we run 
the risk of upsetting the Chinese Government by publishing your 
book.''--the employee wrote.
    Let me just say, and all of you might want to comment on 
this--a tale of two stories--story number one, they got back 
later and said it was for economic reasons. To the best of my 
knowledge, the ABA is very well-endowed with finances. When 
they write books on human rights, it is not to turn a profit. 
It is to tell a story, and a story that must be told. Who 
better to tell it than Dr. Teng?
    My sense, as a Member of Congress for 36 years, and working 
on Chinese human rights for 36 years, of the human rights 
abuses around the world, is that it appears the ABA 
capitulated, caved. We have invited them to be here. We will 
invite them again because I would like to ask very specific 
questions.
    I do believe it is enabling of a dictatorship when a group 
with such a reputation as the ABA turns down a book like this 
out of fear of retaliation. It becomes the modus operandi of so 
many like Deutsche Welle and others who cave into the pressure.
    As Dr. Teng points out--any of you want to respond to 
this--he says he does not want to single out the ABA, although 
that is with whom he has had the problem. But says it is the 
latest example of the corrosive influence of the Chinese 
Communist Party on the west. He talks about Yahoo. We have had 
hearings in my Subcommittee on Human Rights in this Commission 
that I have chaired about how Yahoo has turned over the names 
of dissidents when asked and Shi Tao got 10 years simply for 
telling people about the upcoming Tiananmen Square efforts by 
the government to suppress.
    He points out in his testimony that Facebook is flirting 
with the Chinese market. Twitter has just hired a former 
Chinese military and security apparatchik to head their 
operations in China--that is not an ominous sign.
    Su Yutong, you talked about posting your comments on 
Twitter. Well, I would think Twitter is certainly that which 
would be found in China would become increasingly off limits to 
any kind of dissident.
    Then he makes a very good point about the ABA might 
imagine, for instance, that the All China Lawyer's Association 
is their professional counterpart. It has been my experience 
that the Chinese Government and other dictatorships always want 
to have this twinning with what appears to be like-minded 
organizations. The Chinese National Peoples' Congress with the 
U.S. Congress, sending over delegations as if they are elected 
by the population as opposed to be the party apparatchik.
    Finally, he does point out--and you might want to respond 
to this as well--that the rule of law human rights dialogues, 
meanwhile, have mostly become a means for the party to deflect 
substantive demands to change its human rights practices. 
Dialogues end with vague remarks about the importance of 
dialogue and the understanding in the ongoing nature of the 
reform process without producing results.
    The United States, another country, but a similar 
dictatorship in Vietnam, has lifted the arms embargo on lethal 
weapons--as we all know--without any conditionality on human 
rights, without any, zero. We have appealed to him--me and 
others, many others--asking--including the New York Times in an 
editorial--not to do this. So we get a reprise of the same 
flawed policy of the United States.
    I would note, Su Yutong, you point out the most notable is 
the U.S. President Obama who has been very weak in compromising 
when facing Chinese human rights issues. That is an 
understatement. But I appreciate the candor. Forget political 
correctness. Real wonderful people are tortured--and we just 
had a hearing on torture in this Commission--with impunity, and 
there is barely a voice of dissent, and certainly no linkage to 
trade or arms control deals as we are seeing in Vietnam when 
this egregious behavior manifests itself as it does.
    So if any of you would like to touch on anything that I 
have said here, please do.
    To Angela Gui, Hong Kong, unlike mainland China, has 
historically enjoyed greater press freedom--we all know that--
and freedom of expression. Do you know why the Chinese 
authorities targeted your father and his company? Is it part of 
a growing crackdown? Secondly, has the U.S. Government and 
other like-minded governments--what have they done to help your 
father? For example, has the Swedish government responded to 
your requests regarding your father's case?
    [The prepared statement of Mr. Teng appears in the 
appendix.]
    Ms. Gui. Well, I would like to say that I am very grateful 
for all the help and support I have had from the Swedish 
government. However, I do believe that its resources have not 
been exhausted completely yet.
    I would like to ask the United States and other governments 
to keep asking questions and to keep raising it with China, 
both privately and publicly.
    As for Hong Kong, it has not been clear what my dad, 
officially, is in Chinese custody for. I have not had any 
written confirmation of his being in detention. I have not had 
a formal detention notice. So I do not know what the official 
reason is. However, it seems to me that it is quite clear that 
he is there because of his work.
    I suppose that is why all of his coworkers are there as 
well, or have been there. They have nominally been released. 
Lee Bo, for example, has been made to return more than once.
    Chairman Smith. Let me ask you, Mr. Hassan, the Chinese 
Government notoriously not only puts pressure, but also 
incarcerates family members, particularly of dissidents. Rebiya 
Kadeer has testified here before, as you know.
    We know that India's recent revocation of the World Uyghur 
Congress Executive Committee Chairman Dolkun Isa's visa, 
reportedly, was due to Chinese pressure. If you could speak to 
the issue of this harassment, incarceration, and torture of 
family members, which has to be the cruelest cut of all, to 
take it out on one's loved ones, which is what is happening to 
the Uyghurs and others, but also the influence on other 
governments like India and there are other governments as well.
    Mr. Hassan. Thank you, sir. Definitely--we were facing--the 
Chinese Government prosecution is unprecedented. It is to 
understand almost like a black hole. We do not know what is 
going on over there. It is in the news, killing, shooting, and 
arresting.
    Personally, my sister's detention, it was very sudden 
because of my writing in the Chinese websites about 
government--what they are doing in east Turkistan, cracking 
down. We were arrested--given the reason at the time when I had 
conversation with my second sister, they said only the regional 
authority asked to detain my sister. And they could only send 
money and clothes. No visits allowed.
    That same day, actually, it was not only my sister. Also 
the Radio Free Asia journalist Shohret Hoshur's brother--also 
it was the same day, he got arrested in--my sister was in--
another city, another 500 kilometers away city, and they would 
get arrested.
    So in the jail they are facing solitary confinement. What 
else happened, because of the cut off of communication, after 
that I was only able to call my father's cell phone before he 
passed away last month. My father only picked up the phone to 
say, son, we are okay. Keep safe. Then he would drop the phone.
    So that is the reality. I do not know what happened to my 
sister over there, or how long she was detained. It was at 
least for eight months, I am sure, because that time I got 
another message from my son saying she is not released yet.
    Regarding the Dolkun Isa--overseas activity--Dolkun Isa was 
frequently stopped by some countries that were under the 
Chinese pressure. One was South Korea in late 2009. He was 
involved in an international human rights conference, to attend 
Seoul. When he was entering South Korea, in the airport, he was 
detained. They put him in airport confinement, solitary 
confinement, and for more than three days he lost contact. His 
was only able to send a few messages to outside.
    Then because of the United States' intervention and the 
German European Union, finally he was put back on the German 
airplane.
    Recently, last month--the end of last month--Dr. Yang 
Jianli, he organized a religious ethnic groups conference in 
Dharamsala. The Uyghur Congress initially gave the names of 
eight delegates. Finally, I am the only to make that trip. 
Others--Dolkun Isa's visa became a big point in the newspaper. 
He was issued a visa, and then it was cancelled.
    Over there, we met with some dignitaries. We asked them--
they were saying because Dolkun Isa was in the Red Notice of 
Interpol. But some journalists did a search of Interpol's 
wanted list. Dolkun Isa's name was not there. He was only on 
the Chinese list, but still Chinese can have an impact on 
India's decisions and South Korea's decisions. Of course, other 
human rights activists are facing the same issue.
    A few years back, also, the Uyghur leadership tried to 
visit India and some other countries. Taiwan also denied the 
visas.
    Thank you.
    Chairman Smith. Thank you. I have some additional 
questions, but I would like to yield to Ted Lieu who has joined 
us.
    Commissioner?
    Representative Lieu. Thank you, Mr. Chairman.
    Angela, thank you for being here. I have a few questions 
for you. I just want to make sure I understand this correctly.
    Your father is a Swedish citizen?
    Ms. Gui. Yes.
    Representative Lieu. And only a Swedish citizen?
    Ms. Gui. Yes.
    Representative Lieu. Has Sweden taken action on this case?
    Ms. Gui. They have, yes.
    Representative Lieu. What have they done or requested?
    Ms. Gui. They were allowed to meet him in February. They 
were not given any information until this video clip aired on 
Chinese TV. Before that, they were sending inquiries to the 
Chinese authorities asking if they knew anything, but I have 
been told that they were just told that they did not know 
anything. And they were asking Sweden why they were asking them 
since he disappeared in Thailand.
    However, when this clip became public, it was quite clear 
where he was. So then after that, Sweden started sending 
inquiries to be able to speak with him or to meet with him. 
That was not granted until late February.
    When they finally got to meet him, he told them that he did 
not want any help, and that he considered himself to be 
Chinese. And then he got up to leave is what I have been told.
    In my understanding, they keep asking privately for more 
information on his charges, if there are any charges. They keep 
asking for further counselor access, which they have not been 
granted. They have not been given any proper answers to any of 
their questions.
    Representative Lieu. Has the U.S. State Department done 
anything in this case?
    Ms. Gui. Well, I read this report that was issued quite 
recently. I was quite happy with that. I would like to thank 
the U.S. State Department for doing that.
    Representative Lieu. Is your father currently detained, or 
is he free to travel within a certain area, or what is your 
understanding of where he is?
    Ms. Gui. That is very unclear. I actually do not know. I 
have not been told directly where he is even. I do not know 
where in China he is.
    As I said earlier, there has not been any official 
detention notice. So officially, it would seem that he is just 
there.
    I have had phone calls from him in which he has told me 
that I am not allowed to visit. But that he is going to be able 
to call me regularly which has not really happened.
    That is, unfortunately, all I know.
    Representative Lieu. When was the last phone call you had 
with your dad?
    Ms. Gui. That was a bit over a month ago.
    Representative Lieu. And China has not said anything about 
any sorts of charges?
    Ms. Gui. No.
    Representative Lieu. And then the alleged videotaped 
statements he made, what was the nature of those statements? 
What did they have him say?
    Ms. Gui. Well, he said that he had returned to China on his 
own, and that he did not wish to have any help from the Swedish 
government or any institutions because he considered himself 
Chinese, even though he has Swedish citizenship. He also said 
that he returned because he felt remorse over a supposed drunk 
driving accident in which he is supposed to have killed a 
person. That is supposed to have been 12 or 13 years ago, I 
believe.
    This is not anything that I have ever heard of. So I 
seriously doubt that it is something that even happened, and if 
it did happen, I am wondering why there has not been any order 
for his arrest.
    I have spoken to the Swedish police, and I have been told 
that there has not been any reports to Interpol from China for 
my father's arrest. So it just seems very unlikely to me that--
even if it would have happened, this accident--that this would 
have anything to do with it.
    Representative Lieu. Do you believe he was making these 
statements freely or voluntarily?
    Ms. Gui. Absolutely not.
    Representative Lieu. At the time that he was abducted, was 
he remodeling? I read in your statement he is remodeling his 
kitchen in Hong Kong?
    Ms. Gui. Yes.
    Representative Lieu. So if you were to believe what China 
is saying, it would be in the middle of his remodel he just 
decided to up and leave and go to China, and stay there; right?
    Ms. Gui. Yes. Without telling me beforehand, and we had 
even planned to speak in a few days after our last call, our 
last Skype call, which I mentioned in my statement. As his 
daughter, I was quite close to him. I am certain that he would 
have told me.
    Representative Lieu. Right.
    Ms. Gui. If he were to suddenly decide to go to China.
    Representative Lieu. Right. Thank you for your testimony.
    Ms. Gui. Thank you.
    Representative Lieu. I yield back.
    Chairman Smith. Thank you very much, Commissioner.
    I would like to ask Su Yutong, if you would. In your 
testimony, you spoke about how Mr. Limbourg said that Deutsche 
Welle's coverage would fit into the guidance and direction set 
by China. He announced the cooperative framework between 
Deutsche Welle and China Central Television, CCTV, in early 
2015. But then the Bundestag took note of the cooperation and 
conducted a hearing, and that they temporarily suspended that 
cooperation.
    One, is that still suspended, or are they cooperating now? 
Secondly, your termination was based on your criticism of 
China. What did the TV network tell you? For most news networks 
pursuing the truth unfettered and without fear is what they 
aspire to. Some do not live up to it, but when DW and others 
are compromised in this way, it certainly puts a--their 
reputation suffers as an objective news source.
    I am wondering--in Germany, for example, or anywhere else, 
has DW's objectivity suffered as a result of your aspiring for 
speaking the truth about Chinese repression?
    Ms. Su. Here I would like to ask all of you to continue 
your support to Deutsche Welle.
    I just do not agree with Mr. Peter Limbourg's--what he said 
about when he paid a visit to the Chinese Division, not to 
criticize the Chinese Government too much. I think as a 
journalist, we should not be told what not to criticize and 
what to criticize.
    When Peter Limbourg told us not to criticize the Chinese 
Government too much, I opposed it, and he clearly expressed 
that my opinion--such an opinion was not welcome.
    When I was fired by DW, the reason they told me for sacking 
me was that I disclosed internal meetings, the information of 
internal meetings at DW on Twitter. But to me, this is a public 
affair. I have my responsibility to disclose it. This is not 
internal.
    So the reason, they told me when they sacked me, was that I 
disclosed internal information of my employment, of my work. 
But to me, for DW, hiring somebody to write articles to 
whitewash the Tiananmen massacre, I think this is my 
responsibility to criticize them.
    I actually to the matter to the court, and the court has 
made a verdict which I think is quite fair, but because of the 
legal issues, I cannot disclose any more information. But the 
judge did say she could see the political background in this 
case.
    So during the hearing of German Bundestag there was 
extensive media coverage of the hearing. I did disclose that DW 
did sign with CCTV a framework of cooperation that they agreed 
to adopt the directives from China.
    I did write numerous letters to German Bundestag, and I had 
meetings with the media committee of the Bundestag, and I did 
ask them not to talk too much about my personal case, but I did 
ask them to pay more attention to DW. That is why the German 
Bundestag held that hearing on Deutsche Welle signing the 
framework of cooperation with China Central TV, CCTV. After the 
suspension, I do not know how they will progress.
    As for other media workers who became victims of this kind 
of censorship--for example, my former colleagues, the deputy 
director and the director of the Chinese Division of Deutsche 
Welle, they were moved to other positions after my case. The 
worst effect of my case is that many of my former colleagues at 
Deutsche Welle decided not to touch the so-called ``sensitive 
topics.'' The key issue here is that the employees of Deutsche 
Welle, especially the Chinese Division, they chose to avoid 
certain sensitive topics, topics such as Tibetan--and 
Malaysians, and Xinjiang. So in choosing their coverage, Tibet 
and Xinjiang, they were very choosey in determining what to 
cover.
    The biggest significance of my fight in this case is that 
it pushed the German Bundestag to conduct the hearing. As a 
result, it did pressure DW not to avoid human rights coverage 
too much.
    But still, I am very unsatisfied with Deutsche Welle. For 
example, the columnist who wrote an article whitewashing the 
Tiananmen massacre, Frank Sieren, he continues to write his 
column. And in his column, he included his hidden praises of 
the Chinese Government. Another columnist I mentioned before, 
Zhang Danhong, continues to write her column as well.
    My case is not an isolated case. After I was sacked, 
reporters from French Radio International contacted me and told 
me that they were censored by the Chinese Embassy. The Chinese 
Embassy in France pressured French Radio International.
    I have been in touch with journalist from public 
broadcasters. I am still worried about such censorship, but I 
have been in touch with reporters from Voice of American, and I 
am happy to hear that they still take up the responsibility and 
uphold their ethical standards.
    But as I said, the Chinese Embassies around the world have 
been increasingly taking up a role as the ``Ministry of 
Propaganda.''
    Chairman Smith. Thank you.
    Mr. Lieu, anything further?
    Representative Lieu. I would ask one more question to 
Angela. The Chinese Foreign Minister, I think, had made the 
remark that your father was, ``first and foremost a Chinese 
citizen.'' Were you aware of that remark?
    Ms. Gui. Yes.
    Representative Lieu. Had your father given up Swedish 
citizen?
    Ms. Gui. No. He has not. I have been told that Chinese 
authorities have told Swedish authorities that he wished to do 
so. There have not been any papers filed to my knowledge.
    Representative Lieu. Okay.
    Ms. Gui. And this was after his disappearance.
    Representative Lieu. Thank you. Just for the record, I find 
that statement from the Foreign Minister bizarre.
    Ms. Gui. So do I.
    Representative Lieu. So I yield back.
    Chairman Smith. Let me just conclude here. First of all, I 
want to note that Chen Guangcheng and his wife, Weijing are 
here, two wonderful human rights activists who have paid a dear 
price for their work, having suffered in prison for four years, 
and then even a similar amount of years--over three--under 
house arrest. Welcome to this hearing.
    Dr. Yang Jianli is also here, President of Initiatives for 
China, who testified at our most recent hearing on torture. He 
is here somewhere. He may be in the back.
    And there are others, very notable and brave individuals. 
Thank them for their work.
    Let me just conclude--to Su Yutong and to all of you, I do 
believe that every time, every time the Chinese Government 
coerces a news organization, a policymaker, a government, and 
that entity yields, not only do they get away with impunity and 
in some cases murder, literally, but certainly human rights 
abuse of a very high degree. It only emboldens the Chinese 
Government to do more of it because it does yield results. I 
would hope that all news organizations--thank you for point out 
the VOA is very clear and does not stray and is not influenced. 
There are others like them.
    But it is very disconcerting how quickly businesses, some 
corporations, particularly some like Google for so long, are 
willing to just sacrifice freedom and their commitment to human 
rights and democracy in order to get a piece of the rock to get 
some money. On the case of the corporations to have access--you 
mentioned--we were talking earlier about the fact that--I 
mentioned it, but Dr. Teng, especially said that we could not 
hear his whole testimony--but the whole idea of censoring like 
that, and having the ABA--which again, I will ask again if they 
would like to come. We will offer the opportunity for the 
American Bar Association to testify as to why they revoked 
their offer to print a book that just needs to be published.
    It reminds me of Stanford years ago, when the man that 
broke the story of coercive population control lost his 
doctorate--this was in the early 1980s--because it was an 
unpleasant truth and the Chinese Government pushed back on that 
University. It was so bad that a number of editorials were 
written, one by the Wall Street Journal. The title was Stanford 
Morality. It talked about how access to China trumped telling 
the truth about a hideous attack on women and women's rights 
and children through their coercive population control policy.
    Unfortunately--and that is why we are having this hearing--
this is part of a pattern. We held hearings recently, and we 
are going to do more. We are awaiting a GAO report on Confucius 
Institutes and the muzzling of American universities that have 
Confucius Institutes operating on their campuses to be a little 
more lax in their concerns about human rights.
    Recently, I gave a keynote speech at NYU Shanghai, pointing 
out concerns about human rights, because it concerns--regarding 
that university. So it is an ongoing probe that this Commission 
is doing.
    We should just speak truth to power, and let the chips fall 
where they may. And frankly, we would be amazed--I believe--on 
how it will at least on the edges, and then eventually at its 
core, transfer these societies that have embraced dictatorship. 
I am talking about at the point of a gun.
    I thank our witnesses. You helped this Commission. I think 
we are going to have to wait, frankly, until the next 
Administration to see any meaningful action. Hopefully whoever 
wins will take Chinese human rights abuse seriously and not 
mishandle it the way it has been. I say that not as a partisan, 
but as someone who cares--like you--deeply about these issues. 
It is all about the victim. It is all about the person who is 
suffering in the Laogai or some other place of detention.
    Without objection, I would just like to ensure for the 
record, the transcript of the video of the wives that spoke 
earlier--words from wives of human rights lawyers in China will 
be made a part of the record.
    And Wen Yunchao--his statement will also be made a part of 
the record.
    Thank you so much to our witnesses for your bravery and for 
speaking truth to power. The hearing is adjourned.
    [A transcript of the video clip appears in the appendix.]
    [The prepared statement of Mr. Wen Yunchao appears in the 
appendix.]
    [Whereupon the hearing was concluded at 1:55 p.m.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                    Prepared Statement of Teng Biao

                              may 24, 2016

           The Cost of Self-Censorship in Dealing With China

    In December 2014 I was invited by the American Bar Association 
(ABA) to write a manuscript for a book to be titled ``Darkness Before 
Dawn.'' In it, I would describe the decade I spent engaged in human 
rights work in China, and what those experiences illustrate about the 
country's politics, judicial system, society, and future.
    But the formal offer with the ABA was soon rescinded. The reason, I 
was told by the executive director of ABA publishing, was because they 
were afraid to anger the Chinese government.
    When ``Chinese politics'' is mentioned, most think of the factional 
struggles forever roiling Zhongnanhai, the headquarters of the 
Communist Party. But this is only part of the picture. The stories I've 
long sought to tell are otherwise: about the activists given heavy 
prison sentences for forming opposition political parties; about the 
human rights lawyers who've represented persecuted Christians, Falun 
Gong practitioners, Tibetans, and Uyghurs; about the rights defenders 
whose dogged activism helped to abolish the labor camp system. And then 
there are those who've worked against the one child birth control 
policy, forced demolitions, judicial misconduct, and environmental 
pollution, as well as the non-governmental organizations (NGOs) who 
have promoted democratic ideals, defended free speech, and pushed for 
greater gender equality.
    I'm one of their number: for my activism I've been banned from 
teaching, been forced out of a job, had my passport confiscated, been 
disbarred from practicing law, and have even been jailed and tortured. 
All of us engaged in this work have paid an enormous price--but we've 
made progress. No understanding of contemporary China is complete 
without a thorough grasp of this community of Chinese activists. 
They're the country's hope for the future.
    These were the ideas animating the manuscript proposal that was at 
first enthusiastically received by the ABA. It promised to be ``an 
important and groundbreaking book,'' my correspondent said. But the 
formal publishing contract we signed was soon reneged upon, with this 
explanation: ``There is concern that we run the risk of upsetting the 
Chinese government by publishing your book, and because we have ABA 
commissions working in China there is fear that we would put them and 
their work at risk.''
    I don't want to single out the ABA. This is simply the latest 
example of the corrosive influence of the Chinese Communist Party on 
the West. I had the experience that my schedule speech was cancelled 
for the last minute by an American university, the reason given to me 
was exactly the same one as ABA. It's a crowded field: There are the 
Confucius Institutes and the Federations of Chinese Scholars and 
Students, both under the control of the Chinese government as they 
erode academic freedom on campuses in the United States. There's Yahoo, 
who provided China's public security forces with the personal 
information of Chinese political dissidents so authorities could arrest 
and jail them. Facebook is flirting with the China market. And Twitter 
just hired a former Chinese military and security apparatchik to head 
their operations in China. ``Red capital'' has flooded the media 
markets in Hong Kong and Taiwan, and some Western journalists have been 
forced out of China or denied visas. Books have had key passages deemed 
sensitive deleted. And many Western scholars of China practice self-
censorship--for perfectly understandable reasons: if their conclusions 
on a ``sensitive'' political topic anger the regime, they won't get a 
visa, and their prestige, position, and funding will be jeopardized. 
Chinese and Tibetan activists living in San Francisco, London, 
Switzerland were attacked when participating in protests. Chinese 
activists, dissidents, publishers were kidnapped in Thailand or Burma 
and sent back to China, Some of them hold Swedish or UK passport.
    The ABA is just one of the many major Western institutions 
attempting to promote change in China--on the Communist Party's terms. 
Alongside the ABA's Rule of Law Initiative, there's the U.S.-China 
Human Rights Dialogue, the EU-China Human Rights Dialogue, training 
programs for Chinese judges, prosecutors, and police, and exchange 
programs with universities and the official lawyers' associations. 
These organizations want their programs to be effective--and so they 
carefully avoid a great many issues that might endanger their success. 
The list is long: the persecution of Falun Gong, the Tiananmen Square 
massacre in 1989, the Party's policies in Tibet and Xinjiang, 
dissidents, ``radical'' human rights lawyers, and street activists. 
There is a constant guessing game about which way the political winds 
in Beijing are blowing. And so without realizing it, Western 
institutions end up helping the Chinese government to silence and 
marginalize the individuals and groups it finds the most troublesome. 
Self-censorship has become instinctive, and now characterizes the very 
basis of their interactions with the regime.
    For the quiet sense of guilt that self-censorship engenders, there 
is a tempting comfort in the idea that: ``Well, in the end we're still 
creating more space for the rule of law and human rights.''
    But the reality of foreign assistance has resulted in an unintended 
consequence. Nearly all the major program funding has ended up in the 
pockets of government departments, Government-Organized Nongovernmental 
Organizations (GONGOs), and scholars with state ties. Resources meant 
to support the rule of law and human rights have made their way into 
the hands of those whose job it is trample upon human rights: courts, 
Procuratorates, public security departments, the official lawyers 
association, and Party-affiliated mass organizations like the All-China 
Women's Federation.
    Americans here are guilty of the classic error of mirror-imaging: 
projecting onto China what is familiar to them. The ABA might imagine, 
for instance, that the All China Lawyers Association (ACLA) is their 
professional counterpart. This would be a deep misunderstanding. My 
book discusses the extensive efforts by rights defense lawyers in 
Beijing to lobby for free elections for key positions in the ACLA, and 
how the attempts were shut down and those engaged in them punished. 
ACLA, and all Bar Associations in China, are simply part of the 
government's apparatus of control: it has disbarred numerous rights 
lawyers on the orders of the Party, and has been a proactive accomplice 
in drafting policies that prevent lawyers from taking on political 
cases. Helping these GONGOs is worse than doing nothing.
    The same can be said for the training programs directed at police, 
judges, and prosecutors: Western organizations are inclined to think 
that miscarriages of justice must simply be a matter of insufficient 
professional training. Wrong again. The primary reason for abuses of 
justice in China is because the judicial system is an instrument of 
Party control, where political cadres directly and arbitrarily 
interfere in legal cases.
    Foreign organizations are thus limited to working in the apolitical 
safe zones the regime tacitly permits. These include, for instance, 
environmental protection, better treatment for handicapped people, 
women's rights, HIV/AIDS, and education. Even in these sectors though, 
they're still treated as ``hostile foreign forces.'' In the past few 
years, in particular, the regime's realm of permissiveness has rapidly 
constricted. And so we see that attempts to please the Communist Party 
with mild-mannered human rights promotion haven't brought about any 
concessions on the part of the authorities. The soon-to-be-passed 
Foreign NGO Management Law will further narrow the space in which these 
organizations can operate.
    Rule of law and human rights dialogues, meanwhile, have mostly 
become a means for the Party to deflect substantive demands to change 
its human rights practices. Dialogues end with vague remarks about the 
importance of dialogue and understanding and the ongoing nature of the 
reform process. Yet rights defenders and journalists are arrested in 
still greater numbers. Torture, forced disappearances, detention in 
black jails, and religious persecution haven't decreased. When the 
Chinese activist Cao Shunli attempted to participate in the UN Human 
Rights Council's Universal Periodic Review, she was tortured to death. 
Other recent prominent cases include that of Tenzin Delek Rinpoche, a 
Tibetan monk, who died in jail in July 2015, and Ilham Tohti, a 
moderate Uyghur scholar, who was sentenced to life imprisonment last 
year. Both were peaceful activists. And then there is Nobel Peace Prize 
laureate Liu Xiaobo, who is still serving his 11 year sentence in 
prison.
    Because the Party has already fixed the realm of the permissible, 
foreign organizations feel that they're limited to working only with 
official agencies and scholars. But those who need help the most, who 
deserve it the most, and who've taken the greatest risks for China's 
future, are excluded before a conversation can even begin.
    If refusing to publish my book was the price to pay for genuinely 
effective work by ABA to promote the rule of law in China, then I would 
happily tear the contract up myself. But the opposite is true.
    The permissive attitude and mild policies on China by international 
NGOs is of a piece with the West's general appeasement of China's 
dictatorship. It's an approach based on short-sighted interests, and it 
undermines the sanctity of universal values. Not only do these policies 
fail to promote human rights and the rule of law in China, but the 
relentless self-censorship has come to erode the moral prestige and 
values that are at the foundation of free societies. It's high time for 
a new approach.
                                 ______
                                 

                    Prepared Statement of Angela Gui

                              may 24, 2016
    Mr. Chairman Smith, Co-chairman Rubio,
    Thank you for inviting me to testify at this important hearing, and 
thank you for the concern this Commission has shown for people like my 
father who are being persecuted by the Chinese government in China, and 
now, increasingly, abroad.
    As a university student, I never would've thought I'd find myself 
testifying in front of the US congress, and certainly not circumstances 
like these.
    On October 13th last year, I had my last Skype conversation with my 
father. Living in different places, we used to call each other on Skype 
regularly--I would tell him about how my studies were going, and he 
would tell me about work and how he was trying to get back into shape. 
Our last Skype call wasn't very different--he had been renovating his 
kitchen in Hong Kong and sent me pictures of what it looked like, 
saying he would show me in person when it was finished.
    We made plans to speak again in a few days, but then he stopped 
replying to my messages and emails, wouldn't pick up when I called, and 
about three weeks later I received an email from his colleague Lee Bo 
saying that my father had been missing for over twenty days and that he 
feared my father had been taken by Chinese agents for political reasons 
relating to his publishing business and bookstore.
    I was later told that my father was last seen leaving his holiday 
apartment in Thailand with a man who had been loitering there, waiting 
for my father to return. I was also told that three of his colleagues 
at the bookstore had gone missing around the same time. We didn't know 
that Lee Bo himself would be next.
    Since then, the Chinese have detained my father without trial or 
charges. In November and in January, he sent me two messages on Skype 
telling me to keep quiet. As his daughter, I could tell he sent these 
under duress. I didn't hear or see anything of my father until a 
clearly staged and badly put together confession video of him was aired 
on Chinese state TV in January, three months after he was last seen. It 
failed to explain why they had held him without charge for three months 
and looked to me like they felt they needed to fabricate a 
justification in face of increasing media pressure.
    Mr. Chairman, it has now been eight months since my father and his 
colleagues were taken into custody. I still haven't been told where he 
is, how he is being treated, or what his legal status is--which is 
especially shocking in light of the fact that my father holds Swedish, 
and only Swedish, citizenship. In the so-called confession my father 
says he travelled to China voluntarily--but if this is true, then why 
is there no record of him having left Thailand? Only a state agency, 
acting coercively and against both International and China's own law 
could achieve such a disappearance. By acting against my father and his 
colleagues, the Chinese are undermining their commitment to the ``One 
Country, Two Systems'' principle.
    I want my testimony today to be a reminder to governments that 
despite the media having gone eerily quiet, my father, a Swedish 
citizen who was abducted by Chinese state agents from a third sovereign 
country, is still in unofficial and illegal detention somewhere in 
China, without access to consular visits or legal representation.
    Despite having been told to stay quiet, I believe speaking up is 
the only option I have. Past cases show that public criticism has had 
positive effects, and I'm convinced my father would have done this for 
me, were I the one abducted and illegitimately detained without any 
indication of timeframe. Therefore I'm also here to ask for the 
committee's help and support in working with the Swedish and other 
governments to demand my father's immediate release. Alternatively--if 
he is suspected of an actual crime--we should be given official details 
of his detention and proof that his case is handled according to 
established legal procedure. I also want to ask the United States to 
take every opportunity to ask China for information on my father's 
status, and urge that he be freed immediately. Finally, the US, Sweden, 
and other countries concerned about these developments need to work to 
make sure that Chinese authorities are not allowed to carry out illegal 
operations on foreign soil.
    Thank you.
                                 ______
                                 

              Prepared Statement of Ilshat Hassan Kokbore

                              may 24, 2016
    Good afternoon.
    I would like to first thank the CECC for holding this important 
hearing today, and for inviting me to participate. I am a victim of the 
Chinese government's constant political persecution, and a human rights 
activist living in the United States.
    Personally, I hope the U.S. government and U.S. Congress can 
understand the Chinese government's long arm, which stretches beyond 
China's borders to overseas, to threaten and harass overseas human 
rights activists. I hope the U.S. government and Congress will act to 
hold the Chinese government accountable for its vicious actions.
    This is my personal story.
    My name is Ilshat Hassan Kokbore, also known as Ilshat Hassan. I 
was born in Ghulja, East Turkistan.
    I have been politically active against communist Chinese rule in 
East Turkistan since studying at university in the 1980s. Constantly 
under harassment, threats, and persecution from the regional 
government's secret service agency, I was forced to leave East 
Turkistan in November 2003, leaving behind my parents, sisters and 
brothers, wife, and child. After three years of waiting in Kuala 
Lumpur, Malaysia for resettlement as a refugee, in July 2006, I came to 
the United States.
    After coming to the United States, I joined the Uyghur American 
Association (UAA) and became a very active member of UAA. I actively 
participated, organizing demonstrations against the Chinese 
government's occupation of East Turkistan, attending and holding 
conferences to expose the Chinese government's cruel policy against the 
Uyghur people, and writing articles in Chinese to rebuke their claim 
over East Turkistan.
    My political activities greatly agitated the Chinese government. In 
the beginning, the Chinese government held my family members hostage, 
denying my wife and son passports; inhumanely causing the forced 
separation of my family. I was only able to meet with my son after 10 
years of long-suffering separation.
    After losing the hope of getting a passport for my wife, and also 
of protecting her from constant harassment from the Chinese government 
and secret agents, I had to make the painful decision to get a divorce. 
But that didn't stop the Chinese government from continuing to harass 
and threaten my ex-wife, and she was continually under surveillance and 
threats.
    In order to pressure me to stop my political activities, on August 
17, 2014, at midnight, Chinese authorities burst into my elder sister's 
house around 1:30 a.m.; after searching her house and taking her son's 
computer, she was detained in an undisclosed place for around 8-10 
months, without any charge. Even though she was released, she still has 
to report to the local police regularly, and has to get approval even 
to visit our parents.
    On the same day, August 17, 2014, RFA journalist Shohret Hoshur's 
two brothers were detained, and were later sentenced. This was obvious 
retaliation against Mr. Hoshur, who revealed a great deal about Chinese 
police brutality against Uyghurs.
    As we all know, prominent Uyghur leader, human rights champion, and 
World Uyghur Congress (WUC) president Mrs. Rebiya Kadeer has constantly 
been accused by the Chinese government of being an evil separatist; and 
her two sons were sentenced to jail as retaliation from the Chinese 
government.
    The Chinese government pressured one of Mrs. Kadeer's imprisoned 
sons to condemn his mother, and to accuse Mrs. Kadeer of being an evil 
criminal. As normal, civilized human beings, we cannot imagine under 
what circumstances, and under what kind of pressure, a son was forced 
to condemn his dearest mother, accusing his own mother publicly of 
being a criminal!
    Dolkun Isa, another prominent Uyghur human rights activist, and 
chair of the WUC executive committee, was recently preparing to attend 
a meeting held in Dharamsala, India. The Indian government, after 
issuing a visa to Mr. Isa, and under the Chinese government's pressure, 
cancelled the visa, denying Mr. Isa entry into India.
    In late 2009, Mr. Isa, as a German citizen, was in immediate danger 
of being repatriated back to China when he tried to enter South Korea 
to attend a human rights conference. He was put in solitary confinement 
for more than three days, before the U.S. and European Union 
intervened.
    The Chinese government has constantly tried to block all of Mr. 
Isa's political activities by claiming he is a wanted terrorist 
according to an Interpol red notice, baselessly accusing him of 
supporting and funding terrorists.
    Recently, another friend of mine, a Uyghur who is a Norwegian 
citizen, called me and told me that his family members living in East 
Turkistan were being harassed by the Chinese government; some of his 
family members were brought to the police station and interrogated for 
several hours, and they were told to tell him to stop any activities 
supporting Uyghurs.
    Of course, we all know about the Uyghur refugees who managed to get 
out of China; but unfortunately, they were sent back to China by some 
irresponsible countries when they were in the process of applying for 
UNHCR refugee status. Some of them were directly interrogated by 
Chinese police in other countries, and their family members were 
threatened. After they were repatriated, most of them disappeared, and 
some of them were given harsh sentences.
    The story of Uyghurs facing the Chinese government's constant 
persecution, harassment, and threats goes on and on. Even Uyghurs who 
live overseas can't be spared from the inhuman political persecution of 
the Chinese government. The Chinese government's long arm keeps 
stretching longer and longer. It's obvious that if China isn't 
pressured to stop this kind of harassment, no one will be safe, 
regardless of where we live.
                                 ______
                                 

                    Prepared Statement of Su Yutong

                              may 24, 2016
    My name is Su Yutong. I am a journalist and activist based in 
Germany. In June, 2010, after I made public the personal diary of 
former Chinese Premier Li Peng, my house was ransacked by the police 
and I was forced to leave China. In August that year, I became a 
journalist with the Chinese section of Deutsche Welle where I wrote and 
published nearly 1,500 articles, most of which were about human rights 
and political affairs in China. The human rights lawyers and activists 
I reported included Chen Guangcheng, Ilham Tohti, Gao Zhisheng and Gao 
Yu. All of this work annoyed the Chinese Communist Party (CCP). Its 
state-owned newspaper Global Times attacked me in an article in August, 
2014, for ``constantly criticizing and vilifying China.''
    Before I came to the United States to participate in this hearing, 
I was in contact with Chinese journalist Gao Yu and the family members 
of detained human rights lawyers. Gao, aged 72, had already been jailed 
twice. She was arrested and sentenced to prison in April, 2014, for a 
third time, on charges evidently fabricated by the Chinese Communist 
Party. The real reason for her imprisonment was retaliation for an 
article she published in her Deutsche Welle column ``Beijing Observer'' 
which criticized Xi Jinping. I was her executive editor at the time. 
Last November, after Gao Yu was released on medical parole, the 
University of Bonn hospital was preparing to provide comprehensive 
treatment for her. And the German Ambassador to China issued her a visa 
to Germany. But the CCP authorities prevented Gao from leaving China 
for her medical treatment and ordered she remain silent.
    Since July 9th, 2015, the Chinese government has been conducting a 
sweeping crackdown on human rights lawyers and activists. The wives of 
several detained lawyers asked me to bring two videos to this hearing. 
To this day, these women have been unable to visit their husbands in 
custody. No one knows what abuses these incarcerated lawyers and 
activists have been suffering. These women are appealing again to the 
international community for assistance. (I would like to request to 
show these two video clips at the hearing.)
    At this hearing today, there is not enough time to tell the stories 
of all the human rights activists in China. Since Xi Jinping took 
power, China's human rights conditions have worsened constantly. The 
most courageous and outstanding people in China today are now in prison 
or on the way to prison. I am hoping such a human rights disaster will 
receive more media coverage and more attention from the international 
community. But there's one dangerous trend, that is how the CCP has 
reached its arms of news control overseas, as part of its ``Great 
Overseas Propaganda Strategy.'' Such strategies include cross-border 
censorship and infiltration, attempting to muzzle international media 
in their coverage of China's worsening human rights conditions. As a 
journalist, I urge the Congress to pay more attention to this reality.
    In 2011, Li Congjun, the head of Xinhua News Agency, described in a 
article in the Wall Street Journal the ``new global media order''. 
Hundreds of Confucius Institutes proliferate around the world as an 
important part of China's overseas propaganda campaign. The Chinese 
government has been pouring large amount of money in buying up overseas 
newspapers and radio networks. Benjamin Ismail, Asia Director of 
Reporters Without Borders (RSF) says RSF found a number of digital 
radio stations in Paris that had been secretly run by proxy companies 
operated by the Chinese government. In November, 2015, Reuters also 
reported that WCRW, a radio station based in Washington, D.C., has 
China International Radio, a Communist Party mouthpiece, as its hidden 
major shareholder. The radio waves of this station cover the entire 
Washington, D.C. region, including the Capitol Hill and the White 
House.
    According to an investigation by Reuters, there are already 33 
radio stations around that world that are affiliated with China 
International Radio. Numerous media outlets with the Chinese government 
as the controlling shareholder scatter throughout the world. And they 
hire local workers. At the press conferences during the annual sessions 
of National People's Congress and Chinese People's Political 
Consultative Conference in Beijing, CCP officials invited reporters 
from fake overseas media to ask pre-arranged, non-sensitive questions.
    Buying off and cracking down--these are the two tactics being 
adopted in Hong Kong, once a paradise for books banned in China. Hong 
Kong publisher Yiu Mantin was sentenced to 10 years' imprisonment in 
China for publishing the book ``Xi Jinping, China's Godfather.'' In 
March, relatives of New York-based activist Wen Yunchao (also known as 
Bei Feng) and German-based political commentator Chang Ping were 
detained and interrogated in relation to an open letter calling on Xi 
Jinping to resign.
    Under the CCP's media control, a number of overseas and online 
Chinese-language media outlets have been serving as platforms to learn 
about a real China. When I was young, I secretly listened to Voice of 
America which is was and is still banned in China. These media outlets 
have now become targets of the CCP's incessant efforts at control. 
Chinese embassies and consulates around the world have started to play 
the role of the Ministry of Propaganda.
    In 2013, my former employer Deutsche Welle hired Peter Limbourg as 
its new director. Soon after he assumed the post, Mr. Limbourg paid a 
visit to the Chinese division and told the staff that he had met with 
Shi Mingde, China's Ambassador to Germany. Mr. Limbourg demanded that 
the Chinese division not always criticize the Chinese authorities and 
should ``appropriately encourage'' them instead. In 2014, Mr. Limbourg 
hired Frank Sieren, a German businessman who is a long-term resident of 
Beijing. Mr. Sieren has had numerous business cooperations with the 
CCP's mouthpieces Global Times and China Central Television. In 
September, 2014, German newspaper Suddeutsche Zeitung reported the 
minutes of an April meeting between Deutsche Welle and China's 
Ambassador to Germany, which clearly revealed that the Chinese Embassy 
demanded Deutsche Welle change.
    On June 4, 2014, Frank Sieren published an article in Deutsche 
Welle, in German and Chinese languages, describing Tiananmen Massacre 
as ``a slip-up by the CCP.'' The piece sparked a public outcry from a 
number of pro-democracy activists and massacre survivors. I was a 
signatory to an open letter protesting this article. I spoke up against 
the article on Twitter. Soon afterwards, the deputy director and the 
director of the Deutsche Welle Chinese division, both of whom were 
highly critical of Mr. Sieren's article, were shifted to other 
positions. Meanwhile, I was fired by Deutsche Welle.
    In late August, 2014, Mr. Limbourg traveled to Beijing to attend a 
Chinese-German media symposium hosted by CCP mouthpiece Global Times. 
At the same time, I published an open letter to him in the New York 
Times saying that ``the voice of China'' is currently attempting to use 
economic seduction and coercion to expand its ``great overseas 
propaganda'' campaigns around the world. My wishful thinking was that 
Mr. Limbourg, under the warm reception of Global Times, would not be 
drowned in Chinese wine and succumbed to become a tool in the CCP's 
``overseas propaganda campaigns.'' Much to my regret, Mr. Limbourg met 
with Wang Gengnian, the head of China Radio International, in Beijing 
on August 28, 2014. Mr. Limbourg said that Deutsche Welle's coverage 
would fit into the guidance and direction set by China. Soon 
afterwards, he announced a cooperative framework between Deutsche Welle 
and China Central Television (CCTV). In early 2015, Germany's Bundestag 
took note of this cooperation program and conducted a hearing. Deutsche 
Welle announced that it would temporarily suspend its cooperation with 
CCTV.
    Meanwhile, Frank Sieren continues to write a column for Deutsche 
Welle. In 2008, another scandal took place at Deutsche Welle, when a DW 
reporter named Zhang Danhong lied on a German TV program that the human 
rights conditions in China were excellent. She was moved to another 
division at DW after protests. But in early 2015, Ms. Zhang was quietly 
returned to the Chinese department of DW, and was given her own column. 
All of these changes are sending subtle signals.
    The CCP has been continuously expanding its scope of censorship. On 
May 10th, German legislator Michael Brand told the media that he was 
denied entry to China because of his criticism of China's Tibet policy. 
Mr. Brand, Chairman of the Committee on Human Rights and Humanitarian 
Aid of the German Bundestag, said the Chinese Embassy in Germany sent 
people to meet with him in person, demanding him delete his articles on 
Tibet from his official website. They also demanded Mr. Brand not to 
attend a meeting with a Tibetan human rights organization. Mr. Brand 
said such behaviors by the Chinese Communist Party are blatant and 
absurd, and it's unacceptable that the CCP exports its censorship to 
Germany.
    Mr. Brand's stance is very clear and of great importance. We hope 
politicians in countries throughout the world dare to say ``no'' to the 
CCP. In recent years, as China has achieved economic progress, numerous 
countries choose silence and compromise on China's human rights abuses 
in exchange for contracts with the Chinese government. The most notable 
is the U.S. President Barack Obama who has been very weak and 
compromising when facing China's human rights issues. The Chinese 
government nowadays dares to reach its long arms to control the world, 
one factor is the brutal politics since Xi Jinping took power. The 
other reason is the appeasement from a number of countries.
    As a media worker, I urge democratic countries to take notice of 
CCP's propaganda campaigns overseas, and its infiltration and 
disturbance of the freedom of press. The United States and other 
countries should organize investigations into China's infiltration of 
press freedom and media outlets established by the CCP; As a human 
rights activist, I am here to criticize and expose the increased 
crackdowns and persecution of human rights activists by the Chinese 
Communist government, especially under Xi Jinping's regime; I hereby 
request democratic governments not to neglect human rights conditions 
in China. Former U.S. President John F. Kennedy said his speech at West 
Berlin's Schoneberg Rathaus (City Hall) in 1963: ``Freedom is 
indivisible, and when one man is enslaved, all are not free.''
    Finally, please allow me to express my gratitude to CECC's 
continuous focus on China's human rights conditions and assistance to 
activists all along. My special thanks go to Congressman Chris Smith 
and Senator Marco Rubio.
                                 ______
                                 

Prepared Statement of Hon. Christopher H. Smith, a U.S. Representative 
 From New Jersey; Chairman, Congressional-Executive Commission on China

                              may 24, 2016
    One year ago, Major Xiong Yan was barred from visiting his dying 
mother in China. He was repeatedly denied access to Mainland China 
because he is blacklisted, denied access to China because he was a 
student leader of the democracy protests of 1989. Tragically, Major 
Yan's mother passed away, her son never had the chance to say goodbye.
    The Communist leaders in Beijing use the blacklist--along with 
intimidation, repression, and the lure of the Chinese market--to stifle 
discussion of the Tiananmen protests and their violent suppression.
    Academics such as Perry Link and Andrew Nathan are also blacklisted 
for writing about Tiananmen. U.S. corporations, eager to gain access to 
the China's markets, also engage in censorship about Tiananmen. Last 
year the California based LinkedIn began blocking Tiananmen-related 
articles posted inside China or by members hosted on its Chinese site.
    The methods used by Beijing to enforce a code of silence are going 
global. The heavy hand of the Chinese government has expanded beyond 
its borders to intimidate and stifle critical discussion of the Chinese 
government's human rights record and repressive policies.
    Before I talk more broadly about our hearing today, let me first 
say a few words about the Tiananmen massacre.
    The CECC has solemnly commemorated the Tiananmen massacre on and 
around June 4 each year. The Congress does this because of the lives 
lost and persons permanently injured in the massacre. We commemorate 
June 4th each year because of the profound impact the event has had on 
U.S.-China relations and because so many former student leaders have 
made important contributions to the global understanding of China. We 
mark the Tiananmen massacre each year because the Chinese people are 
unable to commemorate this event themselves.
    This year the Congress is not in session on June 4th, but Senator 
Rubio and I will be sending a letter to President Xi Jinping asking him 
to allow uncensored, public discussion of the democracy protests of 
1989; to end retaliation efforts against those who participated in the 
protests, and to release all those still detained for holding 
commemorations about the Tiananmen protests and their violent 
suppression.
    We will urge President Xi to allow discussion of China's past 
history. We believe transparency is in the best interest of U.S.-China 
relations and will improve global perceptions of China.
    Nevertheless, President Xi seems to have a different conception of 
what is in China's interest. As is well-documented already by this 
Commission, his government is engaged in an extraordinary assault on 
civil society and human rights. China is not only interested in 
containing the spread of ``Western values and ideas'' within China, but 
is actively engaged in trying to roll back democracy and human rights 
norms globally.
    In fact it would be fitting to have an empty chair at the witness 
table today representing every dissident fearful of sharing their 
story, every writer whose work has been censored or edited by Chinese 
authorities without their knowledge and every journalist whose critical 
reporting has been blocked or tempered--not just in China, but in the 
West.
    China's recent efforts to blunt scrutiny of its rights record and 
criticism of government policies include:

          (1) Pressing Thailand and Cambodia to repatriate Uyghur 
        refugees and Chinese asylum seekers.
          (2) Disappearing and allegedly abducting five Hong Kong 
        booksellers, including Gui Minhai, the father of one of our 
        witnesses today.
          (3) Supporting clandestine efforts to discredit the Dalai 
        Lama through a Communist Party-supported rival Buddhist sect;
          (4) Harassing and detaining the family members of foreign 
        journalists and human rights advocates. Two of our witnesses 
        today will attest to such harassment.
          (5) Threating the operations of non-governmental 
        organizations working in China through the newly passed 
        Overseas NGO Management Law and other means. Dr. Teng Biao will 
        talk about the cancelation of his book project by the American 
        Bar Association.

    We asked the ABA [American Bar Association] to testify today, but 
the ABA President Paulette Brown and the ABA's CEO Jack Rives were 
unable to testify. The ABA sent a letter to the Commission last month, 
responding to our inquiry about the details surrounding the ABA's 
rescinding of Teng Biao's book project. They want that letter to serve 
as their testimony.
    A copy of the Commission letter to the ABA and the ABA's response 
will be added to the record without objection.
    The long reach of China extends beyond its borders to Thailand, 
South Korea, Malaysia, India, Kenya, at the United Nations, and in the 
United States.
    These efforts present real strategic implications for the United 
States and the international community. The abductions of the 
booksellers challenges the one-country, two systems model in Hong Kong. 
China's efforts to bend international human rights norms present a 
clear challenge to the United Nations and the Human Rights Council 
efforts to hold China accountable. China's efforts to enforce a code of 
silence globally through its economic and diplomatic clout directly 
challenges the Obama Administration's ``Asia Pivot'' and U.S. human 
rights diplomacy.
    The President and his Administration have only a few more chances 
to raise human rights concerns with China. The Strategic and Economic 
Dialogue in two weeks and the G-20 meeting in September.
    The Congress and this Commission will press the Administration to 
do more to advance human rights in China. President Obama must ``shine 
a light'' on human rights problems in China, because nothing good 
happens in the dark.
    But we must also look ahead; use our Commission hearings, our 
Annual Report, and other publications to make a compelling case for the 
next Administration about the centrality of human rights to U.S. 
interests in Asia.
    It is increasingly clear that there is direct link between China's 
domestic human rights problems and the security and prosperity of the 
United States. The health of the U.S. economy and environment, the 
safety of our food and drug supplies, the security of our investments 
and personal information in cyberspace, and the stability of the 
Pacific region will depend on China complying with international law, 
allowing the free flow of news and information, complying with its WTO 
obligations, and protecting the basic rights of Chinese citizens, 
including the fundamental freedoms of religion, expression, assembly, 
and association.
    Losing sight of these facts leads to bad policy, bad diplomacy, and 
the needless juxtaposition of values and interests. It also sends the 
wrong message to those in China standing courageously for greater 
freedoms, human rights, and the rule of law. The human rights lawyers, 
the free press advocates, and those fighting for labor rights, 
religious freedom, and democracy are the best hope for China's future. 
And, they are the best hope for a more stable and prosperous U.S.-China 
relationship.
                                 ______
                                 

 Prepared Statement of Hon. Marco Rubio, a U.S. Senator From Florida; 
        Cochairman, Congressional-Executive Commission on China

                              may 24, 2016
    Next week marks the 27th anniversary of the student-led popular 
protests in Tiananmen Square. Spurred by the death of a prominent 
reformer, thousands gathered in April 1989 seeking greater political 
freedom. Their numbers swelled as the days passed, not only in Beijing 
but in cities and universities across the nation. Eventually more than 
a million people, including journalists, workers, government employees 
and police, joined their ranks making it the largest political protest 
in the history of communist China.
    Late in the evening of June 3, the Army opened fire on peaceful 
protesters. The bloodshed continued into June 4. To this day the 
precise number of resulting casualties is unknown and more than a 
quarter-century later there has been no progress toward a public 
accounting of the events of that week.
    Instead, twenty-seven years later the Chinese government is 
increasingly brazen in its repression . . . no longer limiting its 
reach to China's territorial boundaries, but instead seeking to stifle 
discussion of its deplorable human rights record both at home and 
abroad. Consider the following:
    Dissidents regularly report that their family members who remain in 
China are harassed, detained and even imprisoned in retaliation for 
their truth-telling about the regime's abuses.
    News reports abound of Uyghur Muslim and Chinese asylum-seekers 
being forcibly repatriated from neighboring South Asian countries under 
pressure from the Chinese government.
    Journalists and academics alike are threatened with visa 
revocations, thereby allowing self-censorship to take root in what 
should be the very bastions of free expression and inquiry.
    Even educational institutions based in the United States are not 
immune as more have welcomed the establishment of Confucius Institutes. 
While seemingly benign at face value, the financial support that 
accompanies these centers for Chinese language and cultural education 
come with definite strings attached. Sensitive topics, including Taiwan 
and Tibet, are excluded from the curriculum, and invitations for the 
Dalai Lama to speak at prominent universities are mysteriously 
withdrawn.
    In 2014, the American Association of University Professors issued a 
statement calling on colleagues across the United States and Canada to 
reconsider their partnerships with these centers, stating that, 
``Confucius Institutes function as an arm of the Chinese state and are 
allowed to ignore academic freedom.''
    In April 2016, the Indian government blocked several rights 
advocates and activists from attending an Interfaith/Interethnic 
Conference in Dharamsala, India reportedly due to Chinese government 
pressure to rescind their visas.
    Last month, a news story broke alleging that the American Bar 
Association (ABA) had cancelled a proposed book project with prominent 
Chinese human rights lawyer Teng Biao, who we will hear from today. 
Multiple news sources reported that the project was canceled because of 
fears that the initiative would offend the Chinese government. The ABA 
denied these reports, claiming that the staff person in question who 
had interfaced with Teng Biao had been misinformed. Yet questions 
remain not only about the specifics of the book project but more 
broadly about the ability of groups like the ABA to continue working in 
China without compromising its principles.
    And of course, any discussion of the ``long arm'' of Beijing must 
include recent troubling developments in Hong Kong, specifically the 
disappearances and alleged abductions of five Hong Kong booksellers, 
which have rightly raised alarm bells among Hong Kong activists, human 
rights organizations and foreign governments. The Commission will have 
the distinct privilege today to hear from Angela Gui, the daughter of 
missing bookseller Gui Minhai, a naturalized Swedish citizen who 
disappeared in October 2015 from Pattaya, Thailand. In the recent State 
Department Hong Kong Policy Act report to Congress, the Department 
rightly noted that, ``These cases have raised serious concerns in Hong 
Kong and represent what appears to be the most significant breach of 
the `one country, two systems' policy since 1997.''
    In a sad testament to the timeliness and importance of today's 
hearing topic, some of the witnesses the Commission approached with an 
invitation to testify declined based on very legitimate fears about 
what would happen to members of their family who remain in China. This 
is an inexcusable reality.
    For too long, China has gotten a free pass. The Obama 
Administration's final U.S.-China Strategic and Economic Dialogue is 
just days away in Beijing. Will these issues be prioritized? Will every 
participating U.S. government agency be charged with bringing human 
rights to the forefront with their Chinese counterparts? Will there be 
consequences for China's bold and aggressive disregard for human rights 
and extraterritorial reach? In March, the United States spearheaded a 
collective statement at the U.N. Human Rights Council voicing serious 
concern about a number of issues to include the ``unexplained recent 
disappearances and apparent coerced returns'' of Chinese citizens and 
foreigners to China. The upcoming S&ED will be a litmus test for this 
Administration--the statement was commendable, but will words translate 
into action?

                       Submissions for the Record

                              ----------                              


           Statement Submitted for the Record by Wen Yunchao

                              may 24, 2016
    Honorable Representative Christopher Smith, Senator Marco Rubio, 
and CECC:
    I, Wen Yunchao, hereby solemnly declare that the following 
narrative and news coverage about me and my family are true facts.
    I arrived in the United States on December 27th, 2012. I lodged my 
application for political asylum in July, 2013. I have been waiting for 
the decision on my application. During this period, I have been 
subjected to tremendous pressure and harassment from the Chinese 
government.
    In March 2016, the Chinese government suspected I was related to 
the publication and distribution of an ``Open Letter Calling on Comrade 
Xi Jinping to Resign from All Party and State Leadership Positions.'' 
My parents and other family members and the family members of my wife 
Liu Yang in Guangdong were harassed, blackmailed, and threatened 
numerous times and were forced to disappear. My parents and brother 
were taken away by authorities on March 22nd and were released a week 
later. My wife Liu Yang's parents, brother and sister-in-law have been 
barred by the Chinese government from leaving China. Her parents had to 
cancel their plan to visit the United States in April. Liu Yang's 
brother and his wife have been subjected to disturbances in their daily 
work and life.
    The facts in the following report by New York Times about me and 
the forced disappearance of my relatives in China are all true.

          Wen Yunchao, a Chinese activist living in New York, said in a 
        telephone interview that his parents and younger brother in 
        southern China had been missing since Tuesday (Mar. 22, 2016), 
        after police officers and officials warned his parents that Mr. 
        Wen should tell them what he knew about the letter. Mr. Wen 
        said he had nothing to do with distributing the letter on the 
        Internet, and so refused to bow to the demands.
          The letter, signed by ``Loyal Communist Party Members,'' was 
        sent by email to people with ties to China around the time it 
        appeared on Wujie, shortly after 12:01 a.m. on March 4.
          On Twitter, Mr. Wen, the activist, urged President Obama to 
        ask Mr. Xi to release his parents and brother. ``He kidnapped 
        them on March 22,'' Mr. Wen wrote. Mr. Xi is expected to visit 
        the United States next week for a summit meeting on nuclear 
        security.
          Mr. Wen said in the interview that his sister-in-law had told 
        him that his parents and his younger brother, Wen Yun'ao, a 
        driver for a local government, were all missing. Mr. Wen said 
        his sister-in-law had given no details of when or how his 
        parents disappeared but had said Wen Yun'ao, her husband, was 
        taken away by officials.
          Starting this month, Mr. Wen said, the police and officials 
        repeatedly visited his father, Wen Shaogan, 71, and mother, Qiu 
        Xiaohua, 64, at their home in Jiexi County, Guangdong Province, 
        and told them that Mr. Wen had to admit to helping spread the 
        letter.
          ``At the start, they said they wanted to know if I had 
        anything to do with the open letter calling for Xi Jinping to 
        resign,'' Mr. Wen said. ``But on the 17th (Mar 2016), they said 
        directly that they knew I hadn't written the letter but 
        believed I had something to do with spreading it. They promised 
        that if I told them who wrote the letter and passed it on to 
        me, and how I spread it around, then I would not be held 
        culpable and it would not be held against my family. Otherwise, 
        they said, my younger brother might lose his job.''
          Mr. Wen, a vocal critic of the Chinese government who is also 
        known by the pen name Bei Feng, said he had passed on a message 
        to the officials through his parents that he had nothing to do 
        with writing or distributing the letter.
          ``I told them very clearly that I could not admit to 
        something that had nothing to do with me,'' Mr. Wen said. ``I 
        told them very clearly that I didn't write the letter and had 
        not helped anyone to distribute it, and I had not issued the 
        letter on any websites.'' (The New York Times: China Said to 
        Detain Several Over Letter Criticizing Xi, By EDWARD WONG and 
        CHRIS BUCKLEY, Mar. 25, 2016)

    Please see below a report by AFP about me and the release of my 
relatives after they were forced to disappear. The facts in the article 
are all true.

          Two overseas dissidents said on Wednesday (March 30) that 
        Chinese police had released family members they claimed were 
        detained as part of an official probe into a letter calling on 
        President Xi Jinping to resign.
          Wen told AFP that his father, mother and brother had been 
        released after being held in the southern city of Guangzhou in 
        southern Guangdong province.
          The three were not charged with any crime and security 
        officials accompanied them to tourist sites during their 
        detention, he added.
          ``I think my family's release is related to Xi Jinping's 
        visit to the US,'' he said, referring to the Chinese 
        President's participation in a Washington summit this week.
          Wen earlier claimed that his father warned before his 
        detention that officials in Guangdong believed the exiled 
        activist had ``helped spread'' the letter. (AFP: Dissidents say 
        China relatives released in letter probe, Mar. 30, 2016)

    Around the anniversary of the Tiananmen Massacre in 2015 and during 
the annual sessions of China's National People's Congress and the 
Chinese People's Political Consultative Conference in March 2016, my 
New York home's WiFi network was under DDOA attacks. I was unable to 
use the Internet properly. Days before the 25th anniversary of the 
Tiananmen Massacre in 2014, and just before Xi Jinping visited the U.S. 
in September, 2015, a number of Chinese government officials harassed 
my parents in Guangdong. They warned me not to criticize the Chinese 
government, especially not to criticize Xi and the Chinese economy.
    Furthermore, I have been a frequent target of systematic online 
attacks and harassing phone calls since I left China in 2010. I believe 
these attacks are related to the Chinese government. For details, 
please refer to my testimony on June 25th, 2013, at the CECC hearing, 
``Chinese Hacking: Impact on Human Rights and Commercial Rule of Law.''

    Wen Yunchao
                                 ______
                                 

                        Transcription of Video: 
           Words From Wives of Human Rights Lawyers in China

    Hello friends in the United States. We're wives of citizens and 
human rights lawyers who were arrested in the ``July 9 Mass Arrests'' 
in P.R. China. I'm Wang Qiaoling, wife of attorney Li Heping. I'm Yuan 
Shanshan, wife of attorney Xie Yanyi. I'm Li Wenzu, wife of attorney 
Wang Quanzhang. We feel very grateful to the international community 
and American friends for your persistent concerns about rule of law in 
China and the ``July 9 incident.''
    During the process of ``July 9 mass arrests,'' not only were the 
arrests illegal but also the homes and workplaces of all involved 
lawyers and citizens were searched illegally. Moreover, they were 
detained secretly in ``residence under surveillance.'' Their family 
hired lawyers for them, yet their lawyers were barred from meeting them 
in person. Their lawyers were deprived of rights to meet and 
communicate with them.
    After 6 months detention when the cases reached the state of 
``formal arrest,'' the family of each detainee received ``Notification 
of Arrest,'' yet our loved ones were still deprived of their rights to 
meet and communicate with their lawyers. The Public Security 
authorities said that our loved ones have been assigned lawyers in the 
detention center, so the lawyers hired by us as family members were 
dismissed. But the lawyers hired by us want to have the chance to meet 
their clients to confirm the status of power of attorney, but they were 
also deprived illegally of their rights to meet their clients.
    After the authorities locked up our loved ones illegally, they even 
put some requirements on us to obey their rules of ``four not 
allowed'': we're not allowed to hire lawyers by ourselves; we're not 
allowed to communicate with relatives of other detainees; we're not 
allowed to accept interview of media from abroad; we're not allowed to 
speak out on Internet. Facing these illegal and groundless requirements 
from the government we as family members didn't give in.
    In the past 10 months, we worked together with our lawyers to stand 
fast in striving for our rights following legal procedures and insisted 
to speak out in public. After March 10, 2016, one statement from 12 
countries to the United Nations about human rights situations in China, 
brought turning point to the ``July 9 incident.'' After the publication 
of the statement from 12 countries to the UN on human rights situations 
of China, the situation of the ``July 9 incident'' began to change in 
China.
    First of all, the prosecutor's office began to accept our letter of 
accusation. While before that, they rejected dozens of our letters of 
accusation [of illegal procedures]. The second part of the change was, 
the police officer handling this specific case tried to persuade each 
of us in private, requesting us as family members to accept the lawyers 
assigned by the government. The third part of the change was, in the 
previous two months Secret Police of China continuously approached the 
fellow countrymen in our hometowns, our old classmates and friends, our 
parents and elderships, the sisters and brothers of our loved ones, 
including us the wives of the detainees, and tried to get video 
recordings from us, and asked us to talk in front of the camera to 
persuade our detained family members to plead guilty. But to my 
delight, of course, all of us as family members held the same attitude 
and refused to do so. We requested the government to release our loved 
ones unconditionally.
    During the whole course of the ``July 9 incident,'' public 
attention from the international society on this case pushed it toward 
the better ending. We owe thanks to all of you! We're also anxiously 
hoping our American friends continue to speak out and protest 
continuously without compromise in the days to come. Please unite with 
other Democratic countries to protest against the government of P.R. 
China. We also hope that the United States can use the chance of G-20 
meeting as leverage to bring complete change to the ``July 9 
incident.''
    The Chinese officials take it as very important to be able to 
arrange private meetings with top leaders of Democratic countries. We 
hope that our American friends will request the Chinese officials to 
release people [in illegal detention] when they request private meeting 
[with the President of the United States]. Please ask the Chinese 
government to release all the citizens and lawyers detained in the 
``July 9 incident'' for their human rights activities. We as family 
members of them admire one line in the national anthem of the United 
States, that is: ``the land of the free and the home of the brave.'' We 
hope our American friends in the land of the free and the home of the 
brave will give helping hands to rescue all the Chinese citizens and 
human rights lawyers that were detained in the ``July 9 incident.''
    Thank you all!
                                 ______
                                 

 Letter From the Congressional-Executive Commission on China Submitted 
            to the American Bar Association, April 19, 2016
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                        The Long Arm of China: 
       Global Efforts to Silence Critics from Tiananmen to Today

                              may 24, 2016

                          Witness Biographies

    Angela Gui, Student and Daughter of Disappeared Hong Kong 
Bookseller Gui Minhai

    Angela Gui [rhymes with `way'] is a 22-year-old final year 
undergraduate Sociology student at the University of Warwick, UK. As 
the daughter of Gui Minhai, she has followed and worked actively on his 
case with governments, police, and various human rights groups since 
his ``disappearance'' in October 2015. She also did a brief internship 
with his and Lee Bo's company Mighty Current Distributions in the 
summer of 2014. Aside from her studies and work on her father's case, 
Ms. Gui is also editor and creative director of Warwick Sociology 
Journal, an academic journal showcasing undergraduate and graduate 
student work from universities worldwide. After graduation Ms. Gui 
plans on continuing onto a master's degree in the History of Medicine, 
funded by the Wellcome Trust.

    Ilshat Hassan, President of the Uyghur American Association

    Ilshat Hassan is president of the Uyghur American Association. Born 
in Ghulja, in Xinjiang [pronounced SHEEN-JAHNG], he taught at a college 
in Shihezi [pronounced SURE-HUH-ZI] in Xinjiang for 15 years. In 
November 2003, his teaching career abruptly ended due to his political 
activities. He fled to Malaysia, leaving behind parents, a wife, and a 
teenage son. Mr. Hassan came to the United States as a refugee in July 
2006, and soon after joined the Uyghur American Association, where he 
became a very active Uyghur human rights campaigner. He writes and 
blogs frequently in Chinese and is well known in the overseas Chinese 
democracy community.

    Su Yutong, Journalist, Internet Activist, and Former News 
Broadcaster for the Chinese Service of Deutsche Welle

    Su Yutong is a Chinese journalist and human rights defender. 
Because of her involvement in commemoration events linked to the 
Tiananmen massacre she was ``invited for tea'' and for ``chats'' by the 
Chinese authorities and kept under surveillance and periodically placed 
under house arrest. In 2010, after she distributed Li Peng's Diary, her 
home in China was raided and documents were confiscated by the police. 
After leaving China in 2010, she started working in Bonn with Deutsche 
Welle, the German international broadcaster. On July 4, 2014, a 
Beijing-based media consultant claimed in Deutsche Welle that some 
Western media were unfairly critical of the Chinese government crushing 
of the Tiananmen demonstrations--Ms. Su then became one of the most 
outspoken voices against this whitewashing of the 1989 events. In 
August 2014 Deutsche Welle ended their employment relationship.

    Teng Biao, Chinese Human Rights Lawyer, Visiting Fellow at the 
Harvard Kennedy School and the U.S.-Asia Institute, NYU Law School, and 
Co-Founder of the Open Constitution Initiative

    Dr. Teng Biao [rhymes with `lung'] is a well-known human rights 
lawyer, Visiting Fellow at the Harvard Kennedy School and the U.S.-Asia 
Institute, NYU Law School, and the Co-founder of the Open Constitution 
Initiative. Dr. Teng Biao holds a Ph.D. from Peking University Law 
School and has been a visiting scholar at Yale Law School. He is 
interested in the research on human rights, judicial systems, 
constitutionalism, and social movements. As a human rights lawyer, Dr. 
Teng is a promoter of the Rights Defense Movement and a co-initiator of 
the New Citizens' Movement in China. In 2003, he was one of the ``Three 
Doctors of Law'' who complained to the National People's Congress about 
unconstitutional detentions of internal migrants. Since then, Dr. Teng 
has provided counsel in numerous other human rights cases, including 
those of Chen Guangcheng, rights defender Hu Jia [Who Jah], and many 
other religious freedom and death penalty cases.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
